<html>
<title> - [H.A.S.C. No. 112-20]NAVY, MARINE CORPS AND AIR FORCE TACTICAL AVIATION PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 112-20]

      NAVY, MARINE CORPS AND AIR FORCE TACTICAL AVIATION PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 15, 2011


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                      U.S. GOVERNMENT PRINTING OFFICE
  65-587                   WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dabdaab59ab9afa9aeb2bfb6aaf4b9b5b7f4">[email&#160;protected]</a>  



              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             NIKI TSONGAS, Massachusetts
JON RUNYAN, New Jersey               LARRY KISSELL, North Carolina
MARTHA ROBY, Alabama                 MARTIN HEINRICH, New Mexico
WALTER B. JONES, North Carolina      BILL OWENS, New York
W. TODD AKIN, Missouri               JOHN R. GARAMENDI, California
JOE WILSON, South Carolina           MARK S. CRITZ, Pennsylvania
MICHAEL TURNER, Ohio                 KATHY CASTOR, Florida
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, March 15, 2011, Navy, Marine Corps and Air Force 
  Tactical Aviation Programs.....................................     1

Appendix:

Tuesday, March 15, 2011..........................................    41
                              ----------                              

                        TUESDAY, MARCH 15, 2011

      NAVY, MARINE CORPS AND AIR FORCE TACTICAL AVIATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     5

                               WITNESSES

Shackelford, Lt. Gen. Mark D., USAF, Military Deputy, Office of 
  the Assistant Secretary of the Air Force for Acquisition, U.S. 
  Air Force; and Lt. Gen. Herbert J. Carlisle, USAF, Deputy Chief 
  of Staff for Operations, Plans and Requirements, U.S. Air Force    31
Skinner, VADM W. Mark, USN, Principal Military Deputy to the 
  Assistant Secretary of the Navy (Research, Development, and 
  Acquisition), U.S. Navy; Lt. Gen. Terry G. Robling, USMC, 
  Deputy Commandant of the Marine Corps for Aviation, U.S. Marine 
  Corps; and RADM Kenneth E. Floyd, USN, Director of the Air 
  Warfare Division, U.S. Navy....................................    30
Sullivan, Michael J., Director of Acquisition and Sourcing, U.S. 
  Government Accountability Office...............................     8
Van Buren, David M., Acting Assistant Secretary of the Air Force 
  for Acquisition, U.S. Air Force................................     6
Venlet, VADM David J., Program Executive Officer for the F-35 
  Lightning II Program, U.S. Department of Defense...............     7

                                APPENDIX

Prepared Statements:

    Shackelford, Lt. Gen. Mark D., joint with Lt. Gen. Herbert J. 
      Carlisle...................................................   123
    Skinner, VADM W. Mark, joint with Lt. Gen. Terry G. Robling 
      and RADM Kenneth E. Floyd..................................    91
    Sullivan, Michael J..........................................    65
    Van Buren, David M., joint with VADM David J. Venlet.........    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................   149
    Mr. Garamendi................................................   149
    Mr. Reyes....................................................   149

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................   153
    Mr. Garamendi................................................   161
    Mr. Owens....................................................   161
    Mrs. Roby....................................................   160
 
      NAVY, MARINE CORPS AND AIR FORCE TACTICAL AVIATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Tuesday, March 15, 2011.
    The subcommittee met, pursuant to call, at 11:32 a.m. in 
room 2118, Rayburn House Office Building, Hon. Roscoe G. 
Bartlett (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. The hearing will come to order.
    The subcommittee meets today to receive testimony on the 
Navy, Marine Corps and Air Force budget request for combat 
aircraft programs for fiscal year 2012.
    We welcome our visitors for today.
    The first panel is Mr. David Van Buren, Acting Assistant 
Secretary of the Air Force for Acquisition, also representing 
the Office of the Secretary of Defense; Vice Admiral David 
Venlet, Program Executive Officer for the F-35 aircraft 
program; and Mr. Michael Sullivan, Director of Acquisition and 
Sourcing.
    The subcommittee invited Dr. Ashton Carter, Under Secretary 
of Defense for Acquisition, Technology and Logistics to provide 
testimony today, but he was unable to appear.
    The second panel will be Vice Admiral Mark Skinner, 
Principal Military Deputy to the Assistant Secretary of the 
Navy for Research, Development and Acquisition; Lieutenant 
General Robling, Deputy Commandant of the Marine Corps for 
Aviation; Rear Admiral Kenneth Floyd, Director of the Air 
Warfare Division, the U.S. Navy; and Lieutenant General Mark 
Shackelford, Military Deputy, Office of the Assistant Secretary 
of the Air Force for Acquisition; Lieutenant General Carlisle, 
Deputy Chief of Staff for Operations, Plans and Requirements, 
U.S. Air Force.
    Thank you all very much for accommodating us today and 
coming to this hearing.
    We have a number of issues to cover today, but my opening 
remarks will focus primarily on the F-35 program.
    The F-35 is a complex program. There is no question, 
significant technology and manufacturing capabilities have been 
demonstrated. The thousands of people working at the major 
contractors, as well as the many suppliers and vendors, deserve 
a great deal of credit for their achievements.
    But with tens-of-billions of dollars having been invested 
in F-35 development to date, the program has encountered a 
series of major cost increases and schedule delays. Last year, 
the F-35 program experienced a Nunn-McCurdy cost breach that 
required a restructured program.
    The new program executive officer conducted a Technical 
Baseline Review this past year, which again has resulted in a 
restructured program and additional projected cost increases 
and program delays.
    Concerns about the F-35 program expressed annually for 
several years by the GAO [Government Accountability Office], 
having gone unheeded by the Pentagon, have largely been right 
on the mark.
    Our first panel today includes Mr. Mike Sullivan from the 
Government Accountability Office, who has provided the 
committee independent reports on the F-35 program for many 
years. In 2001, when the Department began the F-35 program, the 
GAO noted that the critical technologies for key aircraft 
performance elements were not mature, and recommended that DOD 
[the Department of Defense] delay the start of system 
development until critical technologies matured to acceptable 
levels.
    The DOD did not delay start of development and procurement 
costs, and procurement costs have climbed from $233 billion to 
over $382 billion since that time.
    In 2006, the GAO noted that the DOD planned to enter 
production with less than 1 percent of testing completed, and 
recommended a delay in production until flight testing 
demonstrated that the F-35 would perform as expected.
    DOD did not delay the start of production, believing the 
risk level was appropriate. Since that time, estimates for 
average F-35 procurement costs have increased over 30 percent.
    In 2008, the DOD implemented a Mid-Course Risk Reduction 
Plan to replenish management reserves by reducing test 
resources. The GAO testified that this plan would likely 
actually increase risk, and recommended that DOD revise the 
plan to address concerns about testing, use of management 
reserves and manufacturing.
    Since then, development costs have increased 22 percent, 
and recent restructurings in the past year have added test 
aircraft back into the program.
    I might also add that in 2007, the GAO testified that 
experience with the first alternate engine program suggests 
that F135 and F136 engine competition could generate savings 
and benefits of up to 20 percent, if contractors are 
incentivized to invest their own money to remain competitive 
and produce more reliable engines, resulting in lower 
maintenance costs.
    Unfortunately, the Pentagon has also rejected the GAO's 
conclusions on the F-35 alternative engine program, and has 
submitted a budget each year since fiscal year 2007 that would 
eliminate competition for the $110 billion F-35 engine program.
    This year we are told that an additional $4.6 billion and 2 
years have been added to the development schedule. Another 124 
aircraft have been removed from the planned buy for the next 5 
years. We have yet to be provided an estimate of the current 
total F-35 program procurement costs.
    The fiscal year 2010-to-completion of development cost 
estimate for the F-35 primary engine contract has increased 
from $385 million to $2.1 billion--445 percent since February 
2008. However, a portion of this increase is due solely to cost 
increases associated with F-35B lift fan components and 
schedule increases in the aircraft program, and not the F135 
engine itself.
    For those who might ask the question regarding F-35 program 
costs, at what point does this program become unaffordable, I 
would respond that, if you believe our Nation needs a fifth-
generation stealth fighter, you have no choice. There is no 
viable competition for this aircraft.
    And I would also point out that, if the Pentagon has its 
way, that is exactly the position we will be in for the engine 
for this aircraft by giving a decades-long, $110 billion, sole 
source contract to the primary engine manufacturer for the F-
35.
    Having no choice but to continue to pay for F-35 
development and procurement cost increases is exactly why many 
of us do not believe that it is wise to create the same 
monopoly situation with the F-35 engine as we have done for the 
F-35 aircraft, that could comprise ultimately up to 95 percent 
of the U.S. fighter fleet.
    Given the $2.6 billion investment already made in a 
competitive engine program, the Pentagon's analysis indicates 
that, over the life cycle of the F-35 aircraft program, that it 
would cost no more for a two-engine program than a one-engine 
F-35 program.
    The Pentagon is concerned with the near-term investment 
costs to maintain a competitive program--initial costs DOD 
incurs to initiate any competitive military acquisition 
program.
    This year, the costs to maintain the competitive engine 
program represent eight one-hundredths of one percent of the 
Pentagon's budget request. The option is whether we believe 
that it is wise for eight one-hundredths of one percent of the 
defense budget to foreclose the option for competition on the 
only element--an estimated $110 billion element--of the F-35 
program that Congress agrees is required for our forces.
    Discussion of the competitive engine issue has been made 
more difficult by misstatements regarding the F-35 engine 
program by former and current members of the Administration. 
The former deputy secretary of defense for Secretary Gates when 
he first became secretary of defense wrote an op-ed indicating 
``The F-35 second engine was not included in the Defense 
Department plan during or before my tenure as deputy 
secretary.''
    This statement is a total misrepresentation of fact. The F-
35 development program began in 2001. The July 2000 Joint 
Strike Fighter program propulsion system acquisition strategy 
includes the design, development and qualification and 
production of a primary and an alternate propulsion system to 
support the JSF [Joint Strike Fighter].
    In November 2006, the same former deputy secretary signed a 
memorandum of understanding with the eight partner nations for 
the F-35 program agreeing ``the production work will include, 
but will not be limited to, the following: production of the 
JSF air vehicle, including propulsion systems, both 135 and 
136.''
    This from the same Administration official, very close to 
the previous quote, which said that it had never been 
anticipated.
    It is a total mystery how the former number one adviser to 
Secretary Gates could write that the F-35 engine was not 
included in the Pentagon's plan during or before his tenure, 
when the alternate engine was in the original F-35 acquisition 
strategy, and he signed an agreement with eight other nations 
to produce the alternate engine.
    Some opponents of the competitive engine point out that the 
competitive engine is 3-5 years behind the primary engine--
without also stating that is the case, because there is the 
acquisition strategy for the F-35 engine.
    The 136 engine development was started four years after the 
135. The 135 engine is about 24 months behind schedule. The 136 
is about 2 to 3 months behind schedule, which means, if the 
engines had been started at the same time, the second engine 
would be now nearly 2 years ahead of the first engine in 
development.
    Some opponents of the competitive engine say there already 
was a competition for the F-35 engine program when, as 
prescribed by the F-35 acquisition strategy, a sole source 
engine development contract was signed with the primary engine 
manufacturer in 2001, and a sole source contract was signed 
with a competitive engine contract in 2005.
    Some say that the primary engine has 20,000 flight test 
hours when the primary engine has, in fact, accumulated less 
than 1,000--only 950--flight test hours, and continues to have 
modifications being made to achieve required capabilities. It 
takes 200,000 flight hours to mature a fighter engine.
    We have had tens-of-billions of dollars in overruns on the 
F-35 development and procurement program, years of delay and 
many misjudgments of risk remaining in the F135 program.
    Secretary Gates, speaking in Fort Worth, Texas, in August 
of 2009 said, ``My impression is that most of the high-risk 
elements associated with this development program are already 
behind us, and I felt a good deal of confidence on the part of 
the leadership here that the manufacturing process, that the 
supply chain, that the issues associated with all of these have 
been addressed, or are being addressed.''
    Since Secretary Gates made this statement, the F-35 program 
cost has increased $50 billion, has had two major schedule 
delays, and procurement of 246 F-35 aircraft has been deferred 
to after 2016.
    F-35 development competition has slipped from 2014 to 2018, 
and increased by nearly $10 billion to $56.4 billion, 
approximately 20 percent. The development test program has 
added 3 years to its schedule, one-third more flights, and 
Secretary Gates has put the Marine Corps short take-off and 
vertical landing F-35B on a 2-year probation to evaluate and 
engineer solutions to the F-35B.
    Major misjudgments of risk in the F-35 program have been 
made at the highest levels of the Pentagon over a number of 
years. Is it possible that wrong judgments are being made on 
the need for competition for the F-35 engine? What gives us 
confidence that the engine decision is anything other than a 
short-term decision?
    Just like many of us have had to watch the cost of the F-35 
program spiral upward, many of you could have to live with a 
sole source F-35 engine decision for decades to come.
    Before we begin, let me call on the ranking member of this 
subcommittee, my good friend, Mr. Reyes, for his opening 
remarks.

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Reyes. Thank you, Mr. Chairman.
    And I also want to welcome our panelists here this morning. 
As today's hearing on combat aviation programs is a critical 
part of this subcommittee's work for the year, we are very much 
interested in listening to their testimony.
    Other than large Navy ships, the DOD spends more procuring 
aircraft of all types than any other kind of weapon system. In 
fiscal year 2012, the total request for Air Force, Navy and 
Marine Corps aircraft procurement is $33.9 billion. By 
comparison, the Army's total procurement request for fiscal 
year 2012 is only $24 billion.
    That does not mean that the aircraft are not worth the 
price, but it does mean that we must carefully review the DOD's 
request and ensure that the funds are, as always, spent wisely.
    Of the many topics today's hearing will cover, the F-35 
Joint Strike Fighter is probably the most critical issue. When 
the program's schedule was developed, the DOD intentionally 
took some risk in ramping up large-scale production before a 
significant amount of test flights had been completed. The DOD 
is now living with both the benefits and the downsides of this 
plan.
    The good news is that we are building a lot of aircraft, 
thus learning a lot about how to ramp up production while at 
the same time gaining production efficiencies. The downside, on 
the other hand, is that we are finding a lot of things in test 
flights that will now have to be fixed during later production, 
or through later modifications that could prove much more 
expensive.
    With regard to the alternate engine, while I do not support 
continuing with the F136 alternate engine, I do--and I want to 
emphasize this--share the Chairman's concerns about Congress 
being given accurate information from DOD. Regardless of the 
outcome, we have to deal with the facts at hand and not the 
spin.
    A final issue I hope to hear about in today's hearing is 
the apparent disconnect in aircraft procurement strategies 
between the Air Force and the Navy. The Air Force has been 
adamant that it only wants to buy fifth-generation fighter 
aircraft in the future, and thus has refused to consider 
procuring F-16s or F-15s while the F-35 is under development.
    On the other hand, the Navy is planning to continue to 
procure fourth-generation F/A-18 Super Hornets for many years 
while waiting on next versions of the F-35.
    One benefit of the Navy's approach is that as the F-35 is 
further delayed, they can more easily adjust fighter production 
to ensure that there are enough planes to meet future 
requirements, as they did this year by adding another 40 F/A-
18s to their budget request. The Air Force, on the other hand, 
is essentially betting its entire future and force structure on 
the F-35.
    While we all hope that the F-35 proceeds as planned from 
here on out, to me, this does seem like somewhat of a risky 
approach. As a result, I look forward to hearing from our Air 
Force witnesses what the back-up plan might be for additional 
delays in the F-35 Strike Fighter program.
    So, with that, Mr. Chairman, I yield back to you.
    Mr. Bartlett. Thank you.
    Without objection, all witnesses' prepared statements will 
be included in the hearing record.
    Mr. Van Buren, please proceed with your opening remarks. 
Then you will be followed by Admiral Venlet and Mr. Sullivan. 
Thank you for coming.

STATEMENT OF DAVID M. VAN BUREN, ACTING ASSISTANT SECRETARY OF 
         THE AIR FORCE FOR ACQUISITION, U.S. AIR FORCE

    Mr. Van Buren. Thank you, Chairman Bartlett, Ranking Member 
Reyes and distinguished members of the committee. Thank you for 
the opportunity to address this committee regarding the Joint 
Strike Fighter.
    The Joint Strike Fighter is the Department of Defense's 
largest acquisition program, and its importance to our national 
security is immense. The JSF will form the backbone of U.S. air 
combat superiority for generations to come.
    For our international partners who are participating in the 
program, the JSF will become a linchpin for future coalition 
operations that will enhance the strength of our security 
alliances.
    Following the JSF Nunn-McCurdy criteria certification in 
June 2010 by Dr. Carter, the F-35 program office under Admiral 
Venlet conducted the most comprehensive review of the JSF 
program ever accomplished. A Technical Baseline Review assessed 
the cost, schedule and technical risk of the work required to 
complete the F-35 system development and demonstration program.
    The TBR [Technical Baseline Review] involved 120 technical 
experts reviewing every detail of the program over a period of 
months, supported by the full strength of the Air Force and 
Navy's tactical aircraft experts.
    As a result of the TBR, Secretary Gates directed several 
changes to the program. He directed the program decouple 
testing of the short take-off and vertical landing model from 
the carrier, and conventional take-off and landing variants to 
ensure that any problems with this STOVL [short take-off and 
vertical landing] would not delay the other variants.
    Additionally, the Secretary added resources to the system 
design and development program through its completion in 2016. 
Extra development funding will allow us to complete additional 
testing found necessary by the TBR, and properly fund testing 
cost estimates that were previously estimated at too low a 
level.
    The Department further decided to hold production levels to 
32 aircraft in fiscal year 2012. This allows the final assembly 
process at Fort Worth to mature, and reduces concurrency in the 
program.
    Beginning in fiscal year 2013, the Department will increase 
the production by a factor of 1.5 per year, as recommended by 
the manufacturing review team.
    Finally, the Secretary placed the STOVL on probation for 2 
years, as was noted, pending further successful development. 
The probation period limits the procurement of 6 F-35B aircraft 
in both fiscal year 2012 and fiscal year 2013.
    This 2-year period will provide additional time to resolve 
engineering and technical challenges. And at the end of the 2-
year probation, Department leadership will make an informed 
decision on how or whether to proceed with STOVL.
    The Department recognizes the concerns of Congress and the 
taxpayers regarding the cost overruns of this program. The 
Department estimates that the independent production unit cost 
estimate to the JSF have nearly doubled since the program 
began. This cost growth is simply unacceptable and must be 
reversed.
    The Department will be performing a rigorous LRIP [Low Rate 
Initial Production] 5 ``should-cost'' effort. This process has 
already shown some success, with cost reductions in LRIP 4, a 
fixed-price incentive fee contract, with the target costs 
substantially lower than the independent cost estimate.
    The program's management over the past year has put in 
place the right fundamentals and realistic plans using sound 
systems engineering processes. And we are monitoring and 
tracking performance on a continuous basis using detailed 
metrics.
    Overall, there is much work still ahead of us. But through 
the multiple reviews and adjustments in the past year, Dr. 
Carter and I believe we have put the program on sound footing 
for the future. In our opinion, the TBR has given the 
Department the best basis it has had to plan and manage the JSF 
program.
    Admiral Venlet and I have submitted this detailed written 
statement for the committee. Admiral Venlet also has an opening 
statement, but I do wish to thank you again for the opportunity 
to discuss the program.
    Admiral Venlet.
    [The joint prepared statement of Mr. Van Buren and Admiral 
Venlet can be found in the Appendix on page 45.]

 STATEMENT OF VADM DAVID J. VENLET, PROGRAM EXECUTIVE OFFICER 
 FOR THE F-35 LIGHTNING II PROGRAM, U.S. DEPARTMENT OF DEFENSE

    Admiral Venlet. Chairman Bartlett, Ranking Member Reyes and 
distinguished members of the committee, thank you for this 
opportunity to appear before you today.
    By any measure of progress or performance, the F-35 program 
has not delivered acceptable results. Previous reports and 
investigations cite a history of program plans and re-plans to 
which program performance does not measure up.
    You may fairly ask why any new plan presented can be 
depended upon to deliver to expectations or be bounded and 
under control. The changes and decisions reflected in the 
President's 2012 budget are a result of 120 technical experts 
from the F-35 program office and the Services' systems commands 
reviewing the remaining work from the bottom up.
    This plan derives its higher confidence by embracing 
fundamentals in every technical and business discipline. There 
is grounding in realism about cost, schedule and performance.
    Such a grasp on fundamentals and realism is the 
distinguishing characteristic that makes this plan different 
from all before it. This plan has resilience and prudent 
reserve to absorb expected further learning and discovery.
    This is a plan resourced with realism that will begin 
building a record of dependable results.
    I am honored to respond to your further questions.
    Mr. Bartlett. Thank you.
    Mr. Sullivan.

 STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR OF ACQUISITION AND 
        SOURCING, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Good morning, Chairman Bartlett, Ranking 
Member Reyes and members of the subcommittee.
    It is my pleasure to be here again to talk about the Joint 
Strike Fighter program, DOD's largest acquisition ever and so 
important to plans for recapitalizing our Air Force, Navy and 
Marine Corps tactical aircraft. I will make some brief 
comments, and then be happy to take your questions.
    Mr. Chairman, over the last 13 months, Defense leadership 
has taken positive action to restructure the Joint Strike 
Fighter program, and we strongly support these actions, many of 
which are overdue, that we and some other organizations have 
previously recommended.
    We have been concerned since program start about the risks 
posed by the high degree of concurrency between testing and 
production activities, and have consistently recommended 
reducing annual procurement quantities until sufficient testing 
is completed.
    The Secretary's substantial reduction of 246 aircraft 
through 2016 certainly helps lessen concurrency risk. Even with 
that reduction, however, total development cost is now 
estimated at $56.4 billion dollars, and will not be completed 
until 2018--a 26 percent cost increase and a 5-year schedule 
slip from the 2007 baseline.
    We also note that, over the next 5 years, the annual 
funding requirements for procurement more than double, and 
annual quantities more than triple.
    Looking forward, a focus is on affordability, which is 
critical. With future budgets likely to be austere, the program 
is planning an unprecedented amount of funding for a sustained 
period, averaging more than $11 billion per year through 2034.
    And this does not reflect all of the effects of the 
Secretary's recent restructuring actions. We understand the 
Department has not yet calculated the net effects financially 
from differing aircraft quantities from the near term to future 
budgets, and we expect future procurement funding requirements 
to increase once this is done.
    The program had mixed results during the year of 2010, 
achieving 6 of 12 major goals that it set for itself, and 
progressing in varying degrees on the rest.
    There are some encouraging signs. The pace of flight 
testing, for example, accelerated in 2010, accomplishing three 
times as many flights as in the 3 years prior combined.
    Also, there is much more work in process on the factory 
floor. And we have taken annual tours of the factory floor, and 
found it much busier this year than in the past.
    These signs of improvements are counterbalanced with 
continuing setbacks, however. For example, while the Air 
Force's conventional variant and the Navy's carrier variant 
performed well in limited flight tests, the short takeoff and 
landing variant essential to the Marines' future aviation plans 
had numerous technical problems. And as has been stated 
earlier, DOD has directed a 2-year period to slow down 
procurement to engineer solutions.
    The final delivery of test and production aircraft is still 
lagging. That is a big concern for us. And a majority of 
improvements that the expert review teams did recommend have 
not yet been implemented.
    Improving factory through-put and the global supply chain 
are now urgent priorities for the program.
    Also, design changes continue at higher rates than 
expected, and may increase further as flight testing continues. 
This indicates the design is not fully stable, several years 
after critical design review.
    Finally, integration and testing of software essential for 
achieving 80 percent of the JSF's functionality is 
significantly behind schedule as it enters its most challenging 
phase.
    Mr. Chairman, let me conclude by saying that the program's 
time to perform to cost and schedule targets has come.
    The GAO pointed out several years ago that official 
estimates were unrealistic, that they were based on optimistic 
assumptions rather than robust systems engineering knowledge, 
and that plans to cut test assets and reduce flight testing 
during the Mid-Course Risk Reduction Plan were ill-advised. And 
we have consistently pointed out risks to the program that the 
Department has largely ignored until now.
    We now support recent restructuring efforts and believe 
that the added funding, extended time to complete systems 
development and a more robust flight test program provide a 
much more achievable program.
    However, let me say loud and clear again that this program 
still lags behind expectations and is not out of the woods yet. 
Continued strong oversight will be critical.
    Now is the time for much more disciplined decisionmaking 
concerning critical aspects of the program such as: The STOVL 
variants' inefficient schedule; overall cost controls on the 
program; annual funding actions that the Department and the 
Congress will have to make; and management of critical software 
development efforts.
    The program has been supported through many turbulent 
years, and it does represent the fifth-generation fighter, and 
it is a very important piece of our tactical air portfolio.
    There have been a lot of smaller, perhaps lower-priority 
programs that have taken on some of the cost-sharing for the 
Joint Strike Fighter as it goes along.
    After 10 years of product development and 4 years of 
production, it is time for the program to make good on its 
estimates and deliver aircraft in a predictable manner.
    Mr. Chairman, that concludes my statement. I await your 
questions.
    [The prepared statement of Mr. Sullivan can be found in the 
Appendix on page 65.]
    Mr. Bartlett. Thank you very much.
    Thank all of you for your testimony.
    As is usually my practice, I will delay my questions until 
the end, hoping that my colleagues will have asked them all.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And thank you all for your testimony.
    I have two questions, one for Admiral Venlet dealing with 
the testing results and production plans, and the other one for 
Mr. Sullivan regarding the issue of the software and its 
development.
    For the Admiral, your testimony states that, due to a 
series of problems discovered during testing, Secretary Gates 
placed the F-35B short takeoff and landing variant JSF on 
probation for 2 years.
    He also directed major changes to the program that will add 
hundreds of additional test flights. While test data to date 
shows the other two F-35 variants somewhat ahead of schedule in 
this testing, but the 35B continues to fall behind.
    So my questions are, when exactly will the program, in your 
opinion, have enough flight test data to allow us to get off 
this probation designation?
    And secondly, in the meantime, does it make sense to put 
the 19 additional F-35B aircraft on contract for production, 
which are being paid by fiscal year 2010 and fiscal year 2011 
funds?
    [The information referred to can be found in the Appendix 
on page 149.]
    Mr. Reyes. And then, finally, why not build more of the 
other variants that are not on probation instead of the 35B?
    Admiral Venlet. Thank you, sir. Your reference to the STOVL 
falling further behind, I would lead with the recent months' 
progress has been quite remarkable for the STOVL aircraft.
    It has flown quite a bit more. It has accomplished a lot 
more vertical landings, really, since the turn of the year. We 
have four of them return to flight test.
    If I might just start with a current event issue, sir, you 
mentioned discovery in flight test. Last week we had a dual 
generator failure on an Air Force test aircraft at Edwards Air 
Force Base. To take the time to understand what caused that, 
what its impacts were, we grounded the entire test fleet and 
their first two production aircraft.
    Over the weekend, they were able to do an investigation and 
tear the hardware apart. They understand what caused that 
failure and the failure of the other generator.
    And yesterday, they determined that there was a difference 
in configuration of generators in the first test aircraft 
built. This was a new configuration generator that was cut in.
    And the differences gave confidence that we could return 
the original, the older generator aircraft to flight. So 
yesterday, AF1 flew at Edwards, and today, the four STOVL test 
aircraft are on the schedule to fly today at Pax River.
    So, I mentioned resilience in the schedule. This generator 
is actually an early opportunity to test that resilience in our 
schedule to see if we can absorb this and learn from it.
    So, when will we have enough data to basically come off of 
probation for the STOVL, sir?
    The effect of probation was the suppression of the 
procurement quantities. The test program has been planned and 
is having detailed adjustments made to it this year, so it is 
going full-speed ahead. And it was planned to do that even 
before probation was pondered.
    So, the actual focus in this probation period--and I am 
meeting with the commandant every month. In fact, this week, 
Friday, I meet with my shipmate behind me here and several 
others to keep the commandant informed.
    We are going to focus on several characteristics. The first 
of all will be weight. We will watch how the weight is affected 
by what we learn in flight test. We will watch how it performs 
in its first sea trials, scheduled this fall.
    Our progress in testing has improved our confidence of our 
ability to meet what is our now-plan date of late October or 
early November for its first sea trials. I know that was 
originally planned to be late last year, slipped into the 
spring. Our current planning and progress is giving us good 
confidence that we will make this fall.
    So, the weight, the ship operability, the discovery of 
flight test that illuminates what we expect as key performance 
parameters to be, and then, its progress towards achieving an 
airworthiness determination by the technical assistance 
command, and its ability to fly unmonitored in the fleet's 
hands without test instrumentation and engineers following it.
    Those are the characteristics that we will inform and we 
will evaluate. And it will be a combination of those things, 
not any one particular thing that will lead to the 
determination of the confidence to go forward near the end of 
2012.
    You asked about the wisdom of continuing to buy. These are 
certainly challenging decisions.
    The complexity of the program and concurrency, the path 
that we have set about to test and build and deliver to the 
fleet, and operate at the same--this is our first year of 
experiencing that. We are delivering our first production 
aircraft this year, and we will be standing up testing for the 
Air Force in Eglin Air Force Base.
    Now, a comment. I have to wait and see what this generator 
issue is going to do to that. There is nothing known on that. 
We are evaluating that as we sit here.
    But to break production would add additional cost. I think 
the Secretary in this budget has moderated its spread 
production out to reduce the impacts of concurrency and the 
possibilities of modification due to learning and test.
    I will stop there.
    Mr. Reyes. Thank you. I will have some follow-up, but I 
will wait until the next round.
    Let me go to Mr. Sullivan on software. In your testimony, 
you discuss the potential additional delays that could result 
from the software development effort within the F-35 program. 
And specifically, you note that each software block is likely 
to be at least 2 years late, which obviously delays the overall 
program.
    The two questions I have: Are these delays primarily the 
result of overoptimistic initial estimates, or are they 
performance short-falls by the contractors? That is number one.
    And number two, given the size and the complexity involved, 
is the program doing well compared to the private sector, in 
your opinion?
    Mr. Sullivan. To answer your first question, I think your 
point about underestimating the time and resources that would 
be needed at the beginning of the program is probably the right 
answer.
    I think the program has found, number one, that the lines 
of code that are needed to make up all of the performance and 
functionality that software has to bring to this weapons system 
has grown by about 40 percent since that time. And it is 
already probably the most software-laden aircraft ever 
developed. I know it is more than the F-22 or F/A-18E/F.
    So, I think they underestimated the enormity of the 
challenge for software development. They did not plan for 
enough time.
    And I think that they did not plan to keep software 
engineering experts around long enough. That has been one, I 
think, one of the cost drivers on the program, as well.
    So, I think that, from our point of view, is the answer to 
the first one. They were optimistic in their original 
estimates.
    With regard to your second question, I do not have a whole 
lot of experience comparing defense programs with commercial, 
but we have done some work in the commercial world to find best 
practices in software, development in software engineering.
    And I would say that the commercial world takes the idea of 
spiral development a lot more seriously than what we see 
typically on a weapon system acquisition.
    What you have on the Joint Strike Fighter is that they want 
to go all the way to--the program will not be complete, and 
development is not complete, until they have all of the 
software delivered Block 3 and beyond, which tends to go beyond 
what you might think of as a 95-percent solution.
    Whereas in the commercial world, I think they are much more 
flexible with incrementally releasing software, getting better 
software to the field, if you will, more quickly, although it 
is not the ultimate. You know, they spin out. I think they are 
much more flexible.
    They reuse software a lot more. They do not rely as much on 
unique software writing and proprietary software, and things 
like that.
    You know, that would be my observations on that.
    Mr. Reyes. And I think it is interesting, because in last 
week's hearing, we talked about just that issue, that sometimes 
it does not make sense to--and unrealistic to expect--a 90, 95 
percent level, when 75, 80 percent, and then evolving through 
that process.
    Mr. Sullivan. Yes.
    Mr. Reyes. So, that is something that I think the committee 
certainly understands, and maybe we can influence.
    Thank you, Mr. Chairman. I yield back.
    Mr. Bartlett. Thank you.
    Mr. LoBiondo.
    Mr. LoBiondo. Mr. Chairman, I would like to yield my time 
to Mr. Shuster.
    Mr. Bartlett. Oh, Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. And I thank the 
gentleman from New Jersey for yielding me his time.
    Mr. Van Buren, on the F-35, I have a couple of concerns, 
first and foremost on the alternative engine.
    We have seen a GAO report that has come out and says the 
alternative engine is, over the long run, cost-neutral, one 
engine or two engines. So, first, I wonder if you could address 
that, along with--I read a report that General Heinz, the 
former Joint Strike Fighter program manager, stated that he 
believes that the Pentagon has not considered, under his 
opinion, operational risk involved with doing away with the 
alternative engine.
    And looking at having an alternative engine, some of the 
other benefits, the technological innovation, enhanced 
contractor responsiveness and, I might add, keeping the costs 
down, which was what I think we have seen over and over again 
when you have competition and a more robust industrial base.
    So, I wonder if you might address those concerns that I 
have.
    Mr. Van Buren. Well, the issue of the alternate engine is 
clearly a case of constrained resources. And currently, in our 
defense budget, we feel that we do not have the resources to 
fund the alternate engine. The monies need to be put on higher 
priority programs.
    Secondarily, the issues of stability in the current engine, 
the F135, it is performing very well. It is very mature. There 
have been no major problems in the flight test program to-date.
    And I would say that the JPO [Joint Program Office] has 
concluded a fixed-price type contract with Pratt and Whitney on 
that engine, and that they appear to be working well to get the 
cost price down.
    Mr. Shuster. Then you would agree that, in the short term, 
it is a $430 million--or a $430 billion savings is what we are 
going after. But the long term, you do agree that there would 
be--the cost would be bear out, it would be neutral, or it 
would be the same cost by having the two engines, and reduce, 
according to General Heinz, operational risks?
    Mr. Van Buren. I do not agree with General Heinz on the 
operational risk. What I will say in the near term is that it 
is an expenditure of well over $2 billion, approaching $3 
billion, funds that we currently do not have.
    Mr. Shuster. And again, we are going to have--in 25 years 
it appears we will have 95 percent of our fighter fleet will be 
the F-35. That is correct?
    Mr. Van Buren. A considerable portion of our fighter fleet 
for the Air Force. I would let the Navy speak to the force 
structure. But for the Air Force, certainly, the F-35 will 
become the largest element of our force structure.
    And I would say that the challenge that we have is to get 
to the ``should-cost'' numbers, aggressively working at the 
reduction in the per-unit costs, not only for the engine, but 
also for the airframe.
    Mr. Shuster. So, one engine you are willing to make the 
bet--95 percent of the Air Force's fleet. Having that one 
engine, you are confident that that is not going to cause an 
increase in operational risk when you have that kind of--we are 
going to rely on that single engine.
    Mr. Van Buren. I am confident with this engine.
    Mr. Shuster. And you talked about unit cost. Economies of 
scale dictate that the more you produce, generally, it drives 
cost down. But yet, we continue to decrease the numbers that we 
are purchasing.
    And you are certain, or you feel certain that that is not 
going to drive up the cost per unit, if we reduce the quantity, 
and we continue to reduce the quantity that we contract to 
produce?
    Mr. Van Buren. Well, I will say that that particular 
factory in Middletown, Connecticut, is also responsible for 
producing F119 and F117 engines for F-22 and C-17 fleet, and 
also will be producing the engines for our KC-46A tanker.
    So, we are confident with the situation up in Connecticut.
    Mr. Shuster. But when you are switching over assembly 
lines, they are not the same engine. Correct?
    Mr. Van Buren. No. They go in parallel lines----
    Mr. Shuster. Right.
    Mr. Van Buren [continuing]. Coming through the factory.
    Mr. Shuster. Well, again, most economics I have studied, 
that when you reduce the units, you are going to drive up--or 
when you reduce the number you order, you are going to drive up 
the unit costs. And even if a plant is producing an engine, it 
is a different engine. Every time you switch over, it seems to 
me, there is going to be an increase in costs.
    So, I have a great concern that we are going with one 
engine. I know the House just recently voted to go with one 
engine.
    But again, with the reliance on the F-35 that we are going 
to be placing on it with 95 percent of the Air Force fleet, 
with our allies moving in that direction, again, I just think 
it is--in the short term, I think we are making a mistake by 
going with one engine. And I hope that as we move down the 
road, we can change that policy, because again, I think there 
are so many benefits to having a competitive program.
    And this Administration has said about going out and being 
competitive and transparent, yet we have seen time after time 
they want to go to sole sourcing on many different items, not 
just in the Defense Department, but across the government, 
which I think is the wrong direction to take.
    I see my time has expired. I thank the chairman and thank 
the gentleman for yielding from New Jersey.
    Mr. Bartlett. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    Mr. Van Buren, flight testing for the F-35 began in 2006. 
Is that correct?
    Mr. Van Buren. Yes, I think so.
    Mr. McIntyre. All right. So, that means you have been 
testing for over 4 years now, going on 5. Is that correct?
    Mr. Van Buren. Very limited testing early on. I think this 
past year was the preponderance of the testing, and we are 
roughly doubling, as I remember, the number of flight test 
sorties this year from last year.
    Mr. McIntyre. Can the current aircraft fly throughout this 
specified envelope?
    Mr. Van Buren. Admiral.
    Mr. McIntyre. Admiral Venlet, you are welcome to help 
answer, if you need.
    Admiral Venlet. Yes, sir. The envelopes are being expanded 
as we speak.
    Just for scale, we have roughly 550 flights under our belt 
now, and we are approaching 900 total flight hours. The 
Technical Baseline Review assessed that it would take up to 
7,700 flights to complete developmental tests on all three 
variants, including the mission systems, which we will take out 
into 2016.
    So, as a matter of scale of how much flight test is behind 
us and how much is ahead of us, roughly 900 hours behind us, 
reaching for--excuse me. I mixed hours and flights.
    So, 550 flights behind us, 7,700 flights to attain.
    Mr. McIntyre. What are the specific reasons that after 4 
years of flight testing, that the F-35 is still not cleared to 
fly throughout the specified envelope? Can you tell us--one, 
two, three, four--what those specific reasons are?
    Admiral Venlet. Developmental flight test incrementally 
opens an envelope. It does not begin with a full envelope at 
the beginning, sir. So, we know what envelope is required for 
the commencement of training by fleet ops. And so, our testing 
is focused on progressing to that size of envelope for all 
three models--Air Force, Navy and Marine Corps.
    You are casting a view of the length of time we have been 
in flight tests, sir, the first--there was only one test that 
we called it AA-1, that was flying for the first couple of 
years. So, it was one struggling airplane not accumulating very 
much flight time, nor was it prepared or instrumented to expand 
the envelope.
    So, we really have only begun to expand the envelope in 
this near the end of 2010. We will do so rapidly in 2011 and 
2012.
    I don't make excuses for that. I just say what it was.
    Mr. McIntyre. Hasn't the F135 engine contributed to the 
delays in the flight testing and the restrictions in the flight 
envelope?
    Admiral Venlet. Specifically, we had a characteristic 
called screech in the afterburner that caused us to have to 
avoid certain portions of the flight envelope, but that did not 
slow us down from going to other points in the envelope to make 
progress, sir. We are fixing--we are putting kits in so that 
the aircraft can go back and catch that up, sir.
    Mr. McIntyre. If you can tell me also, Mr. Van Buren, the 
Air Force variant, you have said, has been performing very 
well.
    So, then, the question becomes, why slow down by cutting 
production by 57 aircraft over the FYDP [Future Years Defense 
Program], and potentially dramatically increasing the cost per 
unit?
    Mr. Van Buren. Well, the reduction in the recurring number 
of jets to be built was caused by the need to more robustly 
fund the development program. And so, resources on the order of 
$4.5 billion were put into the budget between the 2011 budget 
and the 2012 budget to fully fund that testing that needed to 
be done, software development that the Admiral mentioned, and 
to finish the program off in 2016.
    Mr. McIntyre. How much per unit is it going to increase the 
cost over the FYDP?
    Mr. Van Buren. Our plan is to continuously reduce the per-
unit cost from LRIP 4 and beyond on a fixed-price type basis.
    Mr. McIntyre. Right. But during the FYDP, how much will it 
increase the cost per unit?
    Mr. Van Buren. Well, we do not know that. I think that will 
be a product of our ``should-cost'' activity. And we have not 
received our proposal yet on LRIP 5. And that is our task, is 
to robustly reduce the price for all of these variants.
    Mr. McIntyre. I hope that can be achieved. I share with Mr. 
Shuster the same concern, and with Mr. Bartlett, that 
government studies have shown that the alternative engine would 
bring down the cost over the life of the program for the F-35. 
And I am very concerned that we be responsible with taxpayer 
money, and that we also have an opportunity to increase job 
opportunity, which the alternative engine will do.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    And I want to follow up a bit on the one-versus-two engine 
issue, as well.
    I have no dog in the hunt, so it has nothing to do with my 
district whatsoever. I am just interested in getting the best 
results for the taxpayer.
    And it is interesting. This is the only issue that I have 
dealt with in the over 2 years I have been on the Hill in which 
both sides claim the same ground, and that is savings.
    The people who are for one engine say that we are going to 
save money. The people who say we are for two engines say we 
are going to save money. So, both sides are using the same 
rationale.
    The best I can understand about this is that we are really 
looking at different budget windows, that one-engine proponents 
say we are going to save money early on, because we are not 
investing in that research and development. But then, 
proponents of two engines say, in out-years, that is where the 
savings are going to be, because we will have two sources and, 
therefore, we will have competition.
    So, is this really, by going with one engine, are we really 
in essence saving money in the short term in order to actually 
end up spending more money in the long term?
    And I will open to anyone in the panel who would like to 
answer that question.
    Mr. Van Buren. Again, we are constrained on resources here. 
In the near term we know that that would be some cost, and we 
do not feel that that is in our taxpayers' interest.
    Dr. Fleming. Okay. Anyone else like to tackle that 
question?
    Mr. Sullivan. I guess, from our point of view as an 
uninterested observer, if you will. You know, when we looked at 
this issue--it has been a few years ago--we made a number of 
assumptions. So, we did really a rather theoretical look at the 
impact of competition. And I think it does, more or less, boil 
down to near term and long term, which, you know, can be 
interpreted many different ways.
    But I believe where the Department stands now, is that they 
feel that they are in a short-term affordability crunch, and 
they are not willing to invest what is now probably somewhere 
between $2.5 and $3 billion in order to see if they can recoup 
that and more down the road.
    When we did our study, we found it reasonable to assume 
that over the long haul, over a 40-year buy of engines, if you 
competed them annually, you would achieve a return on 
investment that would exceed the investment.
    Dr. Fleming. And I appreciate your honesty in that 
response.
    Do you have--and I know this is an off-the-top-of-your-head 
estimate--what the savings might be in the long term as 
compared to the $2 billion or $3 billion in the short term?
    Mr. Sullivan. We do not have a number for that. But what we 
did was we looked at--we used as a model the Great Engine War. 
I do not know if you are familiar with that, but it was the 
result of the competition that was infused into the F-15, F-16 
engine programs.
    And it was done as a result of the--the prime engine maker 
was not being responsive. Reliability was lacking. Cost was 
going up on the engines. And it was a sole source buy.
    So, the Air Force at that time brought in competition and 
saw cost reductions--initially, a great deal of cost reductions 
as the competition kicked in. And then, through the program, 
was very happy, not only with the financial results of that, 
but also with the--they got much more responsiveness from both 
contractors, and reliability went up.
    Dr. Fleming. Okay. I appreciate that answer.
    Then, would it make sense that down the road another year 
or two, we get our budgets in order, we are winding down our 
conflicts, perhaps we are able to invest that money. Would it 
make sense to open up a second-source engine at a later date?
    Mr. Van Buren. It does not make any sense to us. And we are 
comfortable with the efficiencies of having a single source. We 
find the contractor responsive. We find the costs coming down 
in a fixed-price environment. And there are no major technical 
issues.
    Dr. Fleming. Okay. Okay, well, that being said, I thank 
you, gentlemen, and I yield back.
    Mr. Bartlett. Thank you.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And as the chairman said earlier on, thank you, gentlemen, 
for the work you do, that obviously, this program is very 
important to our Nation. And obviously, we have had some issues 
with this program.
    And I am going to go through some numbers that have been 
repeated. I know the chairman said these, and others have 
referred to them. But I think it is important we not forget 
this as we assess where we are in the development of the F-35.
    In the 10th year of development, that we started out with 
projected cost of $233 billion, is now up to $382 billion. By 
rough math, that is a 65 percent increase. We have cut the 
number of planes we are going to purchase by 400.
    In 2007, Congress appropriated and authorized 90, I 
believe, airplanes, none of which have been delivered. We were 
looking for 32 this year.
    We had less than 10 percent of the flight training 
completed that we wanted to. Referencing back to what Secretary 
Gates said in August 2009, that the rough spots are behind us, 
that we are moving forward. But yet, it seems like we have 
moved from 2014 to 2018, in terms of when we expect the 
production to be completed.
    From the authorization of 2007, we are now 15 months behind 
schedule. And once again, we are talking about the first 
production plane to be delivered next month.
    And, Mr. Van Buren, I do find a lot of concern in my mind 
with your saying, short term, this is the best option for us 
with the single engine, when this program is anything but short 
term in nature. We are talking about 95 percent of our fighter 
fleet. We are talking about years of development leading to 
years that this will be an operational plane.
    There is nothing short-term about this.
    Mr. Sullivan, we have heard the words, and we have talked 
about that the F135 engine, I believe, that the manufacturers 
reached that point to declare an ISR [Initial Services 
Release]. They are ready to go into production.
    But my understanding is that they also asked for $1 billion 
more for development, changes, whatever. It sounds like we are 
anywhere but ready to go into production when you ask for $1 
billion more.
    We have made words aplenty as to where we are. Where do 
words stop and we can be able to say specifically, this is what 
we have got to look for to be able to say we are on a 
production schedule that is meaningful, and that the 
projections we are making in terms of cost and delivery and 
expectations are being met? What are the key things we should 
be looking for other than just projections and words?
    Mr. Sullivan. From our perspective, we believe the 
restructure that they just went through was very comprehensive. 
So, I think you are getting somewhere close to a point where 
you are ready--you know, you are beginning to feel like you 
could go to production.
    However, until the flight test program, and for that 
matter, until the models and simulation that they have are 
accredited, and most of the development issues in testing are 
further along, we believe that right now, that the aircraft is 
too immature--and the engines are too immature--to go to 
production. I do not know. Maybe the program has more insight 
on that.
    Mr. Kissell. Well, and Admiral--or Mr. Van Buren, you know, 
we talk about going to production. But yet, we are not there. 
And so, where are we in terms of going to production and 
actually being able to have, you know, these airplanes rolling 
out and meeting the needs that we have?
    Mr. Van Buren. Congressman, I think one of the biggest 
issues that affected the program was a high-level, a change 
traffic that occurred, notably in the first part of 2009. And 
it took the program some bit of time, delaying deliveries, to 
absorb that change traffic.
    If you look at the metrics on the production line with 
regard to travel, work and span times, and the other, the new 
changes that are occurring, it has come down significantly. So, 
I can say that the production maturity is far better than it 
was 2 years ago.
    That is not to say, though, that there is a lot of work, 
there is a lot of flight test ahead of us and discovery. And 
that is why I think the changes that were made in the 
restructure were very prudent to reduce that concurrency, and 
produce the aircraft at a lower rate of production, which would 
allow the Admiral and the team to make sure that we had a much 
more mature product coming down that production line.
    Mr. Kissell. Okay. Thank you, sir. Thank you, gentlemen, 
once again.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    Thank you, gentlemen, for testifying.
    I did hear about the issue with the testing. What was that, 
the end of last week, where you had to ground the fleet? You 
say you are going to be up in the air today? Is that correct?
    Admiral Venlet. We flew yesterday, sir, with AF1 at 
Edwards.
    Mr. Critz. And no recurring problem with----
    Admiral Venlet. No, sir. The generator configuration is 
different in the jets that are released for flight. And so, 
that is why they are flying.
    Mr. Critz. Okay, good.
    Now, there have been advertisements in local newspapers, 
and I have heard different figures. The Pratt Whitney engine is 
how many billion dollars over budget right now?
    There is an advertisement that says it has $3.9 billion 
cost overruns. Can you put a number on what is the real number? 
What is the real number of the cost overrun on the engine?
    Admiral Venlet. The contract for the F135 has a scope that 
includes the integration into the aircraft that is not on the 
F136. So, the size of the scope of work for the two contracts 
is so different.
    There was a reference to adding more money to that 
contract. We have talked about the Technical Baseline Review, 
that looked at the work to go, sir, and the additional flights 
from 5,500 in the old plan, the 7,700 in the new plan--5,800 
to--it is an 1,800-flight increase.
    There was a need to buy more spares to support that 
extension. So, it was not related to a deficiency in the F135 
as much a preponderance of that money is to support the 
extension in the flight test. We were going to fly 12 aircraft 
in test. We are now going to fly 18.
    There was $470 or $480 million that the Technical Baseline 
Review assessed that was needed to address the integration of 
the STOVL issues that are not unique to the F135, sir. There is 
the lift-fan, drive shaft, clutch, roll-post heating. 
Addressing those technical issues, there are material solutions 
in hand.
    So, the original F135 contract--I would go through my notes 
here, but I--it is currently projected with these cost 
additions to be about 8.2.
    So, I haven't got the beginning portion in my head to give 
you a good delta in that growth, sir.
    Mr. Critz. So, cost additions are $8.2 billion?
    Admiral Venlet. No, that is the total of the entire 
contract----
    Mr. Critz. The entire, right, right.
    Admiral Venlet [continuing]. From the beginning of 2002 to 
the----
    Mr. Critz. And to separate out if the engine--now, you said 
you went from 5,500--5,800 to 7,700. What drove that additional 
flight?
    Admiral Venlet. It was not engine-related, uniquely, sir. 
It was the entire scope of the program.
    There were four characteristics of the growth in the test. 
The planned work was judged to be underestimated in cost and 
schedule. There was work that was not in the test program that 
was necessary to address risks that we saw.
    There was the schedule extension that needed to just pay 
for the more time of flight test and the people involved. And 
then, there was no reserve.
    So, those are the four characteristics that go in. And that 
is across the entire scope of work, aircraft and engine, sir.
    Mr. Critz. Mr. Sullivan, you wanted to say something?
    Mr. Sullivan. Yes, sir. I think the original contract, the 
development contract, began at $4.8 billion. And it is now $8.2 
billion, so it is a $3.4 billion increase.
    Mr. Critz. But that is systemwide. That is not just the 
engine.
    Mr. Sullivan. That is the engine.
    Mr. Critz. That is the engine.
    Mr. Sullivan. Yes.
    Mr. Critz. Oh, so there is a $3.4 billion--oh.
    Well, the reason I bring it up is that, you know, we had a 
presidential helicopter that got cancelled, because it was 
around $3 billion spent, and nothing to show for it. Then we 
just had an EFV program that was cancelled, that was around $3 
billion.
    And, you know, we are at this magic number here, $3.4 
billion creep. You know, obviously, that seems to be a magic 
number on your side of the equation as to when we have got 
problems.
    Of course, we have issues with it, too, when it grows 
exponentially like that, especially when we are told there is 
not enough money in the budget to fund an alternate engine, but 
we have got a $3.4 billion increase in the engine that we are 
buying.
    One other question, and I do not have much time left. But I 
saw where there was about $1 billion cost increase in 
development, and $600 million was for extra flight test 
engines. I am trying to figure this out.
    There were 15 test planes. And then I imagine you buy a 
couple extra engines, just in case. And I am curious why you 
have to buy more.
    Admiral Venlet. The test program did not have spare engines 
in it. It did not have enough spare components and support to 
carry it through. That was one of the areas that was judged 
underestimated and underresourced. So, it was putting the 
realism back in the work to go, sir.
    Mr. Critz. All right. Thank you, and I yield back.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. Shuster was previously yielded Mr. LoBiondo's time. And 
now he is in the queue for his own time. After that, we move to 
those who arrived at the committee after gavel fall.
    Mr. Shuster.
    Mr. Shuster. Thank you very much, Mr. Chairman.
    I just, for the record, want to know, as Dr. Fleming 
stated, I have no manufacturing facilities for this aircraft in 
my district. What I care about is that we are doing what is 
right for this Nation.
    And the other thing Dr. Fleming said is, the argument is 
not one engine versus two engines saves money. It is two 
engines we believe is going to be neutral.
    But it is going to give us, I think as Mr. Sullivan said, 
as we learned from the F-16 and F-15, financially, it will 
improve the response--the response of the supplier to the 
Department of Defense is increased, and the reliability, the 
quality got better.
    So, that is what I care about, making sure we are doing--
making the right choice. Because, Mr. Van Buren, you and I, 25 
years from now, are probably going to be long gone from public 
service. And the Nation is going to have to live with what we 
do with this F-35, being that it is 95 percent of our--it will 
be 95 percent of the fighter fleet.
    So, I hope we get it right. And I hope, if I am up here 
today talking about this, I hope I am wrong, and I hope you are 
right if we go with one engine, because the Nation will be at 
risk.
    But just as we go through this, we talk about cost overruns 
and the schedule slipping. As Mr. Critz pointed out, $3 
billion, and it seems to be the magic number. It is in 
baseball, too. Three strikes and you are out.
    So, you know, this is too important. And I know that when 
we develop new systems, that that often happens, unfortunately. 
But we need to make sure we do what is right for this Nation.
    And Mr. Sullivan, a question to you is, has the program 
been receptive to your advice in the past? When you have come 
to them and laid it out to them what you think, have they been 
receptive to it? Have they stiff-armed you? What has been their 
reaction?
    Mr. Sullivan. Well, we, you know, we maintain an auditor, 
or a program relationship, which I think is good. But we make 
recommendations. We typically make recommendations, make them 
available to the program and the Department. And they weigh 
those and either concur with our recommendations or non-concur.
    And I would say, on this program, it has mostly been non-
concur.
    Mr. Shuster. Right. That is unfortunate to hear.
    And again, if you would, just so I make sure I am 
completely straight on the record, the F-15 and the F-16, your 
testimony today was that it was--that it was financially 
positive, that the supplier was much more responsive to the 
military?
    Mr. Sullivan. The studies that we looked at--and they were 
mostly Air Force and industry studies--showed that there was 
much more--responsiveness went way up. Reliability went up. 
Quality went up.
    And the financial aspects of that, we looked at the first 4 
years of competition to get the percentage savings that we saw. 
So, we did not have the entire lifecycle of the engines. But it 
was dramatic.
    Mr. Shuster. And your general experience in these 
situations, when you have competition, do you typically see 
financially the cost has not necessarily stayed down, but it 
does not grow as quickly, you get the responsiveness and you 
get the reliability? Is that typically your response when--or 
typically what you have seen when----
    Mr. Sullivan. I think that is what competition is all 
about. And in fact, the Department recently has tried to make 
it more of a policy to infuse more competition into these 
programs.
    Mr. Shuster. Right. And what would you say going forward? 
What would you recommend to the Department of Defense on the 
Joint Strike Fighter program to see that past mistakes have not 
been made? What recommendations would you put forward to them?
    Mr. Sullivan. Well, right now, what we believe needs to be 
done is that we think the restructure was a really good, 
comprehensive restructure. But they need to continue to 
maintain very close oversight. We think that software 
management is something that they need to pay very close 
attention.
    We think that they should consider, with the problems that 
the STOVL aircraft is having, I think the Department would be 
good to try to manage that. You know, we have thought about 
perhaps separating that out from the program, so that the other 
two variants can get busy and get testing done.
    Mr. Shuster. Right.
    Mr. Sullivan. And, you know, the funding on this program is 
going to be critical for the Department and for the Congress; 
$11 billion on average over the next 20 years. We believe that 
that should be very closely monitored and limited.
    Mr. Shuster. Right. All right.
    Well, thank you all. Thank you all for your testimony.
    And again, I just would say in closing that I hope we are 
making the right decision. I think it is a short-term decision 
for a long-term system, that we desperately need to make sure 
it is right.
    So, again, thank you very much.
    Mr. Bartlett. Thank you very much.
    Mr. Garamendi.
    Mr. Garamendi. I thank you, Mr. Chairman.
    I noticed that a lot of the discussion on the new strike 
fighter, but also a lot of testimony on the existing equipment 
that we are using. And the structural integrity of the A-10, F-
15, F-16 and F-22 has been in question and, apparently, to be 
dealt with.
    As I was reading that, I was reminded of an incident 
several decades ago in which a piece of equipment on my 
family's ranch needed to be repaired. And an old blacksmith was 
working on it, and he was beating the heck out of that piece of 
steel with a ball-peen hammer.
    About a few decades, several decades later, I ran into a 
laser peening operation in coming out of Lawrence Livermore 
Laboratories and now out in the public, which is apparently 
beating the heck out of a piece of F-22 equipment, and 
strengthening it.
    That is what the blacksmith said. He said, why are you 
doing that? And he said, because it makes it stronger.
    And apparently, laser peening does the same thing, and has 
been proven to be successful on the F-22. And the aircraft 
structural integrity program has found it so.
    So, my question to all of the generals behind you, as well 
as those of you at the table is: Are you considering using the 
laser peening process when you go about the repair or the 
maintenance or the strengthening of certain structural 
materials on the various jets that you are operating? For 
example, Admiral, tailhooks, where I understand it is able to 
increase the viability of a tailhook by two-and-a-half times.
    General.
    Or Admiral, and Mr. Van Buren.
    Mr. Van Buren. Congressman, I would like to take that for 
the record. I am unfamiliar with that. Perhaps some of the 
generals in the second panel might be, but we will take that 
for the record on the first panel.
    [The information referred to can be found in the Appendix 
on page 149.]
    Mr. Garamendi. Well, now you know why I asked you, because 
I figured you did not know about it.
    Admiral.
    Admiral Venlet. I would say that I do have confidence, 
though, that the most modern methods of repair and improvement 
are certainly going to be taken advantage of. But I am also not 
familiar with laser peening specifically.
    Mr. Garamendi. And I suspect most of the men and women 
behind you are also not familiar.
    Admiral Venlet. But that does not mean--the industry team 
that we have and the technical experts in our government 
systems commands might very well know about it, sir. I just 
might not, so I could get back to you.
    Mr. Garamendi. Now you know why I raised the question.
    My next question goes to Mr. Sullivan. Could you tell me 
the three most important things that can be done to hold down 
the cost of the equipment that is being purchased by the 
military? One, two, three.
    Mr. Sullivan. Define requirements a lot better at the 
beginning of the program. Take enough time early in the program 
to ensure that you have a stable design for the full-up weapon 
system through prototyping and good systems engineering 
knowledge.
    And limit the development time to a reasonable kind of a 
horizon that people can actually think about where you are 
getting added value capability to the field, but you are not 
putting yourself in a position where you are trying to invent 
and do trial-and-error on the fly--incremental, knowledge-based 
acquisition.
    Mr. Garamendi. Are we doing those three things?
    Mr. Sullivan. You know, the Department and, in fact, the 
Congress a couple of years ago passed a bunch of acquisition 
reform. The Department has embraced it in its policies. I think 
there are people within the government--I think this program is 
beginning to think along those lines, but there is a long way 
to go.
    I do not know that I could name more than two or three 
programs that I have seen that seem to be doing things in that 
reasonable fashion. It really does all begin with setting 
requirements properly.
    Mr. Garamendi. What does it take to force the Department of 
Defense to do those three things? Another law? Apparently, that 
did not work.
    Mr. Sullivan. That is a very good question, sir. You know, 
I have been doing this for 25 years, and there are an awful lot 
of stakeholders involved in the building of weapon systems. And 
it can be a very complex proposition.
    But I do not know that laws necessarily--we pass laws, we 
pass legislation. I think at some point, it is a matter of 
getting serious with the taxpayers' dollars.
    Mr. Garamendi. Which is our responsibility.
    Mr. Sullivan. That is all of our responsibilities--mine, 
the rest of the people on the panel----
    Mr. Garamendi. I was specifically referring to this 
committee.
    Mr. Sullivan. Yes.
    Mr. Garamendi. When we say that it is not, I suppose we 
should pull the plug.
    Mr. Sullivan. It does not happen very often, and it might--
and decisions, tough decisions like that might make a 
difference in changing the culture, yes.
    Mr. Garamendi. Thank you.
    Mr. Bartlett. Thank you.
    Mr. Wilson, and then Mr. Turner.
    Mr. Wilson. Thank you, Mr. Chairman. And thank all of you 
for being here today.
    And I am particularly interested in the F-35s, the F-35Bs. 
I am very grateful that I know how important they are and to 
our national security. And I represent communities that are 
very supportive of their being placed; for example, the 
Beaufort Marine Corps Air Station, and also, McEntire Joint Air 
Base near Columbia.
    And in fact, I just met with the mayor of Columbia, a new 
mayor, Steve Benjamin, and long-time city councilwoman, Tameika 
Isaac Devine. And we were talking about that we have got the 
right climate.
    It is a meteorological climate, so that people can train 
almost 365 days of the year. And then, it is a climate where 
there are warm, supportive people. So, keep that in mind as you 
think of Beaufort and Columbia.
    I am concerned, Mr. Van Buren. On January the 6th, the 
Secretary of Defense stated he was placing the F-35Bs on a 2-
year probation. It is my understanding that, over this entire 
year, the last 70 days, that the training, the test flights 
have been really very, very positive.
    The Commandant has stated, if this continues, he would like 
to see the probation status lifted and the normal procurement 
numbers restored as soon as possible.
    And so, my first question is: What criteria was established 
to measure its progress, and what is expected during the 
probation period?
    Mr. Van Buren. Well, I will let the Admiral get into a 
little bit more detail. But at a top level, Congressman, I 
would say that it is stability of the design that is not 
impacted by further discovery, and flight test sortie 
generations, flight test rates, is usually reliability, both in 
the vehicle overall, as well as the propulsion system.
    Mr. Wilson. And Admiral? Yes.
    Admiral Venlet. Yes, the test program is structured to go 
at full pace either with or without probation. It did not 
affect the test program; it affected the procurement profiles. 
But to inform the Department, the focus on STOVL unique 
characteristics, sir.
    So, we are sharing with the Commandant and Department 
leadership that each of the technical issues in view right now, 
which are preponderantly integration-related to the STOVL 
characteristics of the airplane to land vertically and short 
take-off. We believe we have engineering solutions to 
everything in view today.
    We are focusing on its weight, its key performance 
parameter of its vertical lift bring-back. Every pound of 
weight is, you know, needs to be offset by thrust. They all 
line up in the same axis, so weight is very critical, and we 
are focusing on weight.
    We are focusing how it will perform around the ship--we 
expect to get there this fall--both how it operates around the 
ship and how it appears it will be able to be supported around 
the ship, as well.
    And then, its ability to work through these issues, and 
then be judged by the systems command to be worthy of an 
airworthiness flight clearance, to be flown by the fleet in an 
unmonitored sense.
    Those will be the characteristics in progress we will be 
closely helping the Commandant keep track of.
    Mr. Wilson. And I cannot wait for the American people to 
see the STOVL capability and what that means in projecting our 
military's ability to save lives and make a difference.
    Mr. Van Buren, who will make the decision to remove the F-
35Bs from the probation, or take other actions?
    Mr. Van Buren. I think it will be recommendations coming 
from Admiral Venlet, through me to Dr. Carter, the Under 
Secretary, and ultimately the Secretary of Defense.
    Mr. Wilson. And again, I just want to thank all of you for 
your service.
    But we are really looking forward. And the communities I 
represent, they love the sound of freedom. And I cannot imagine 
anything more meaningful to the people I represent than F-35Bs.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Gentlemen, I want to return to the issue of the alternate 
engine. I know there has been some discussion. I know many 
times people raise the issue of having an alternate engine as 
being one of budgetary concerns.
    I fall on the side of being concerned of not having an 
alternate engine, that if we go to a single source, we could 
have both problems with price escalation. If there are problems 
that develop with the engine, you could have, certainly, 
devastating consequences to a fleet that has a single source.
    And when you look at the analyses that have occurred that 
indicate that, you know, the Joint Strike Fighter will 
ultimately comprise 95 percent of our fighter attack force 
structure, I think you can become concerned about our 
vulnerability.
    But one of the concerns that I have is the manner in which 
we discuss this issue. Since it is a financial issue, we talk 
about it in terms of comparison. And when we talk about the 135 
engine, the Pratt Whitney engine, people cast that discussion 
in terms of cost efficiencies in production.
    Admiral Mullen said you get savings by production levels. 
He says, I think with the kind of production levels we will 
talk about, that we are talking about, that they will come 
down--meaning the cost amounts will come down.
    Mr. Van Buren, I understand that you had stated in this 
hearing that you are confident that the prices would not be 
increased.
    One of the concerns that I have when we have this 
discussion is the difference between what is opinion, what is 
judgment and what is fact upon which we can rely. When we talk 
about the people who come before us, and even the people who 
sit in our seats, these are decisions that will long last us as 
we look to what the effects are.
    So, I raise my inquiry to the issues of, to what extent is 
it legally binding that these cost reductions will occur? Are 
they projections that people are saying of savings and 
production levels?
    When we go to one and we talk about confidence levels that 
prices will not be raised, is there currently--currently--any 
legally binding way in which it can be enforced that we get 
those cost savings? Or is this something that we are figuring 
and projecting? Because I think it does figure into our overall 
discussion.
    Mr. Van Buren, would you like to start?
    Mr. Van Buren. Surely. What we know in the way of fact is a 
fixed-price contract that we have with Pratt for LRIP 4. What 
we know is that there is substantial cost that will be required 
to continue the F136 development.
    So, our plan is to continue that cost reduction on the F135 
on a fixed-price type basis----
    Mr. Turner. But excuse me. You said--but your fixed-price 
contract, does it currently have a price reduction provision?
    I mean, does it say, if you do not have 136, that your 
costs are a different amount?
    Mr. Van Buren. No. It is simply a contract with the 
manufacturer on a fixed-price incentive fee type basis for the 
quantity that we are procuring in LRIP 4.
    Mr. Turner. And so, it already figures in what Admiral 
Mullen is saying that he believes they are going to be 
production savings and what you say are going to be confident 
of no cost increases, and that these cost reductions will be 
delivered.
    Mr. Van Buren. There is a ceiling or a cap on the price 
that the government would pay for those engines.
    Mr. Turner. Does that contract currently require the cost 
savings that we have heard as a result of the increased 
production that is expected? Or will it have to be 
continually--will it have to be renegotiated?
    I mean, my understanding, my expectation is that there is 
going to have to be additional negotiation and documents that 
occur, that your current primary, underlying document does not 
take into consideration the full timeline of production or the 
increases in production, and deliver the cost savings that are 
projected, or that you are expecting.
    Is that correct? Or does your current document deliver 
those cost savings?
    Mr. Van Buren. This contract is simply for the production 
quantity for the fiscal year 2010 procurement of engines.
    Mr. Turner. That is what I thought. So, when we talk about 
what the cost comparison is going to be, and the budget effects 
for future years, we are talking about projections and 
expectations, not things that are absolute as we go forward 
with these cost comparisons. Am I accurate in characterizing it 
that way?
    Mr. Van Buren. Well, what is absolute would be the 
nonrecurring investment to fund a second engine. That is a 
known fact.
    Mr. Turner. The cost per engine, though, is not known. 
Correct? I mean, you cannot tell me for every year what it is 
going to be. It is an expectation.
    Mr. Van Buren. Well, as I mentioned in my----
    Mr. Turner. The cost, it is a projection. Is that correct?
    Mr. Van Buren. As I mentioned in my opening statement, the 
challenge for us, our responsibility, our commitment to the 
taxpayer and to all of you, is to have to work very diligently 
on the cost reduction for this program--not just with the 
engine, but also with the airframe.
    Mr. Turner. But which is yet to be done. My other portion 
of the point on this is for the issue of the cost for the 136. 
There are, of course, a significant number who have an opinion 
that, in the long run, those will actually be cost savings.
    But I appreciate your distinctions here and your 
explanation.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    In the interest of full disclosure, I would like to note 
that, to the best of my knowledge, the only interest in my 
district relative to the engine is the 135, the prime engine. I 
think that they will do a better job if there is a 136.
    Some of my questions have been asked, not all of them. But 
I will submit most of them for the record. I would just like to 
ask two questions now.
    Mr. Van Buren, wearing your OSD [Office of the Secretary of 
Defense] hat, Secretary Carter indicated last September that 
dual-source procurement for the littoral combat ship would not 
be ``real competition.''
    By December of 2010, Secretary Carter reversed his 
position, because of the lower-than-expected ship price--this 
is what competition does, gentlemen--bid and endorsed dual-
source procurement for the LCS [littoral combat ship].
    In justifying this reversal and stating dual-source 
procurement of LCS is different than dual-source procurement of 
the F-35 engines, the Pentagon has indicated LCS is different, 
because all of the development costs of the LCS have been 
expended.
    But this year's budget request for development costs for 
LCS is $1.9 billion--$785 million higher than last year.
    Can you explain this contradiction to the Pentagon's 
statement and explain why the LCS acquisition model does not 
apply to F-35 engines?
    Mr. Van Buren. Mr. Chairman, I am not equipped to discuss 
the LCS. That is not in an area of the Air Force's portfolio. 
So, I would like to take that for the record and have the 
Department get back to you on that issue.
    [The information referred to can be found in the Appendix 
on page 149.]
    Mr. Bartlett. Admiral.
    Admiral Venlet. Sir, LCS strategy is beyond the vein of my 
awareness or ability to speak to. I am sorry.
    Mr. Bartlett. Mr. Sullivan.
    Mr. Sullivan. I think I am in the same boat, your honor. I 
would not be able to speak intelligently to compare those two 
different acquisitions.
    Mr. Bartlett. To whom should we address this question, so 
that we can get an answer? If we ask this question for the 
record, will somebody answer the question for us?
    Mr. Van Buren. Well, Secretary Stackley, the acquisition 
executive of the Navy, reporting up through Dr. Carter, are the 
most knowledgeable of this topic.
    Mr. Bartlett. Are any of you in that chain of command?
    Mr. Van Buren. No.
    Mr. Bartlett. No? Is anybody in the second panel in that 
chain of command?
    Mr. Van Buren. I will have to----
    Mr. Bartlett. I see a hand raised behind you. Okay, we will 
ask that question again in the second panel. And if you cannot 
answer it, sir, we hope you will go up the chain of command and 
get us an answer for the record.
    Okay, my second question. In your statement--this is 
Admiral Venlet--in your statement, you indicated a fixed-price 
contract has been signed with the contractor for $3.9 billion 
for 32 aircraft for fiscal year 2010. The amount appropriated 
for this--2010 was over $11 billion.
    Given the yet-to-be-determined contract amount for the F-35 
engine, because the fiscal year 2010 contract has yet to be 
signed, how much of the total fiscal year 2010 appropriation is 
still subject to cost-plus determination?
    Admiral Venlet. Yes, sir. We contract on each year's 
procurement fixed-price incentive for the aircraft, and we 
contract for the sustainment portion where we buy simulators, 
support equipment and sustainment activity at cost-plus, since 
we are still early in.
    So, the math--the difference between--you cited a budget 
number and an aircraft fixed-price engine contract number in 
the different--in the space between those two, there is a 
portion for cost-plus sustainment activity on the contract. But 
there are other costs in there, as well. So, I do not have that 
split out, sir.
    But there is a sustainment that is cost-plus, and it will 
be on the next couple of years' contract.
    Mr. Bartlett. We have eight or so foreign countries that 
are interested in buying this plane. I know that some of them--
I do not know how many of them--are distressed that there may 
be only one engine.
    To your knowledge, are any of these sales at risk, if we do 
not have a second engine?
    Because if they are, then that simply drives up the cost of 
our planes, because we have got to spread the development costs 
across the universe of planes that are sold. If fewer are sold, 
ours cost more.
    Wouldn't just some minimal drop in foreign sales way offset 
any potential savings that you hope to achieve by this short-
term not supporting the second engine?
    Mr. Van Buren. Mr. Chairman, I talk to many of the partner 
nations regularly. I know of no risk based on the engine issue.
    Mr. Bartlett. I talked to one of them, and they were 
considerably concerned--I don't know if concerned to the point 
that they are not going to buy. And as the price goes up, we 
risk that some of them will not buy.
    And if they are concerned about a second engine, it would 
not take very many planes not sold to increase our cost, to 
wipe out any miniscule savings that you could achieve by not 
funding the second engine currently.
    I have one other question. We have a vote on, so we will 
recess very shortly, and then we will come back and seat the 
second panel.
    Ultimately, 95 percent of all of our fighter aircraft in 
all of our Services, we hope to be this airplane.
    What percent of the fighter aircraft of our allies will be 
this plane? Do you have any knowledge of that?
    I do not know whether it will be big or small. But whatever 
number it is, I think it indicates a real risk.
    Should there be problems with the engine--there are 
occasionally problems with engines, and we have to ground the 
fleet that uses that engine. So far, that has not been a 
problem, because we have not had 95 percent of our fleet the 
same airplane. So, if one plane is down because of engine 
troubles, we have several other airplanes. That will not be the 
case in the future.
    Not only will a second engine provide competition and drive 
the cost down and the quality up, but shouldn't we also have 
the second engine in some of our planes, so that we will not be 
at risk of having only 5 percent of our planes available in an 
emergency, should there be an engine problem?
    Mr. Van Buren. Mr. Chairman, you asked about the partner 
nations. I would like to take that for the record.
    I think it widely varies from country to country. For some 
countries, JSF is a very high percentage of their future force 
structure; for others, not as much.
    So, I would like to take that for the record.
    [The information referred to can be found in the Appendix 
on page 149.]
    Mr. Bartlett. So, it is not only us who would have 95 
percent of our planes grounded, but a significant percentage of 
the fighter aircraft, and our allies would also be grounded. 
Correct?
    That does not give you some pause that we might be in a 
situation where we desperately need fighter aircraft, and 
neither we nor our allies have very many?
    Mr. Van Buren. Mr. Chairman, I think it is an issue of 
risk. And I think the opinion of the Department right now is 
that the engine is performing very well. It is in a very mature 
state, and the risk is very low.
    Mr. Bartlett. Those are very qualitative terms, sir. The 
slippage in the increased cost would indicate that some would 
not concur with those terms.
    Well, I am just having trouble understanding how it is in 
our long-term best interest to save a few dollars now, and put 
ourselves at risk for the future of having increased cost and a 
lesser quality of engine.
    Competition always makes things better and cheaper. And 
having only one engine, so that if that is grounded, 
essentially our whole fleet is grounded for all of our 
Services--and a major part of the fleet for all of our allies.
    I would hope that would give you considerable pause as we 
look to the future. And I think that this short-term expediency 
of saving a few billion dollars now, that we will pay dearly 
for that in the future.
    Thank you all very much for your testimony. We will recess 
now for votes, and we will return so quickly as we can.
    Thank you.
    [Recess.]
    Mr. Bartlett. Admiral Skinner, please proceed with your 
opening remarks, followed by General Robling, Admiral Floyd, 
General Shackelford and General Carlisle.

  STATEMENT OF VADM W. MARK SKINNER, USN, PRINCIPAL MILITARY 
   DEPUTY TO THE ASSISTANT SECRETARY OF THE NAVY (RESEARCH, 
  DEVELOPMENT, AND ACQUISITION), U.S. NAVY; LT. GEN. TERRY G. 
   ROBLING, USMC, DEPUTY COMMANDANT OF THE MARINE CORPS FOR 
 AVIATION, U.S. MARINE CORPS; AND RADM KENNETH E. FLOYD, USN, 
        DIRECTOR OF THE AIR WARFARE DIVISION, U.S. NAVY

    Admiral Skinner. Chairman Bartlett and Ranking Member 
Reyes, distinguished members of the subcommittee, it is our 
honor to appear before you today to discuss the Department of 
the Navy's aviation procurement programs.
    Testifying alongside me today are Lieutenant General Terry 
Robling, Deputy Commandant for Marine Corps Aviation; and Rear 
Admiral Kenneth Floyd, the Navy's Director of Air Warfare.
    We note the absence of Representative Gabby Giffords, and 
send her and our shipmate, Mark, our best.
    With the permission of the committee, I propose to keep our 
oral remarks brief and submit our combined statement for the 
record. That includes the specific questions requested by the 
subcommittee.
    Mr. Bartlett. Without objection.
    Admiral Skinner. The Department of the Navy's fiscal year 
2012 aviation budget request provides Navy and Marine Corps 
aviation forces capable of meeting the wide spectrum of threats 
to our Nation, both today and in the future.
    This year, the Department of the Navy will procure 137 
fixed wing aircraft, 66 rotary wing aircraft and 20 unmanned 
air vehicles, for a total of 223 aircraft.
    In the past year, we deployed the EA-18G in an 
expeditionary role to Iraq; the E-2D successfully completed an 
operational assessment; our MV-22 fleet reached 100,000 flight 
hours; the AH-1 Zulu successfully completed operational test 
and entered full-rate production; and the CH-53K completed its 
critical design review.
    And with the leadership of Congress, we signed a multiyear 
procurement contract for the F/A-18 and EA-18G, which saved the 
taxpayers $605 million, and we are moving forward on the next 
MH-60 multiyear procurement.
    The Department of the Navy has emerged more confident that 
the essential F-35 Joint Strike Fighter program has been 
positioned for success.
    Taking into account the restructuring of the program 
approved by Secretary Gates last December, we reviewed our 
tactical aircraft inventory projections and initiated strong 
steps to mitigate the strike fighter shortfall to the 
operational commanders by increasing F/A-18E/F procurement 
quantity by 41 aircraft, and including funds to extend the life 
of 150 legacy Hornets.
    By doing this, we anticipate a manageable shortfall of 
approximately 65 aircraft that peaks in fiscal year 2018.
    We are integrating Dr. Carter's Better Buying Power 
initiatives, and are implementing ``should cost'' parameters 
into our programs early, where it can make the most difference, 
such as with the E-2D.
    We are changing our approach to contract types and 
structures, to ensure that we get the most product for the 
warfighter. We are targeting affordability, both in procurement 
and sustainment.
    It is our privilege to testify before you today, and we 
look forward to answering your questions.
    [The joint prepared statement of Admiral Skinner, General 
Robling, and Admiral Floyd can be found in the Appendix on page 
91.]
    Mr. Bartlett. Do I understand that you have made a combined 
statement for all of the group?
    Admiral Skinner. Yes, sir.
    Mr. Bartlett. Thank you very much.
    Mr. Reyes.
    Oh, is there another to testify? It was not clear to me for 
how many you were speaking, sir.
    Who wishes to testify?
    Admiral Skinner. General Robling and----
    Mr. Bartlett. Oh, thank you. Okay, go ahead, sir.

   STATEMENT OF LT. GEN. MARK D. SHACKELFORD, USAF, MILITARY 
DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
ACQUISITION, U.S. AIR FORCE; AND LT. GEN. HERBERT J. CARLISLE, 
     USAF, DEPUTY CHIEF OF STAFF FOR OPERATIONS, PLANS AND 
                  REQUIREMENTS, U.S. AIR FORCE

    General Shackelford. Chairman Bartlett, Ranking Member 
Reyes, distinguished members of the subcommittee, thank you for 
calling this hearing and for the opportunity to provide you 
with an update on the Air Force's tactical aviation programs.
    I am joined this afternoon by Lieutenant General ``Hawk'' 
Carlisle, the Deputy Chief of Staff for Operations, Plans and 
Requirements.
    We acknowledge Congresswoman Giffords' absence this 
afternoon, and wish her a speedy recovery.
    Today, the Air Force is fully engaged in operations across 
the globe, engaged in overseas contingency operations and 
providing support to the combatant commanders to enable them to 
successfully execute their missions.
    In the coming year, we will assess how the fiscal year 2012 
budget aligns with our standing operational requirements, along 
with the upcoming needs of the entire Air Force.
    We understand your focus today is on the Air Force 
investment plans to ensure that conventional strike, air 
superiority and rotary wing capabilities are adequate for 
executing the national military strategy with an acceptable 
level of risk.
    Our rapidly aging aircraft fleet drives our urgent need to 
balance between acquiring new inventory with sustaining our 
current fleet.
    We look forward to discussing how we can match the 
requirements with available resources in order to execute the 
national military strategy.
    Lieutenant General Carlisle and I thank the subcommittee 
for allowing us to appear before you today, and for your 
continued support of the Air Force. I will request our combined 
written statement be submitted for the record. We look forward 
to your questions.
    [The joint prepared statement of General Shackelford and 
General Carlisle can be found in the Appendix on page 123.]
    Mr. Bartlett. Thank you.
    Without objection, all of the written statements will be in 
the record in full.
    Thank you very much for your testimony.
    Now, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here with us and for 
your service, and most of all for your gracious comments about 
Congresswoman Giffords. We really appreciate that. And I know 
it really makes a difference to her staff and family members, 
as well. So, thank you. Thank you very much for that.
    I have a question for General Carlisle, General Robling and 
Admiral Floyd. The committee has been told many times that the 
F-35 is a must-have weapon system for the future.
    I guess the most basic question is: Why is that the case? 
What about the F--what about the F-35, I guess, do we have in 
order to succeed in the future? What is it about the F-35?
    What specific threats are we most concerned about? And how 
does the F-35 counter those threats?
    And the third one is: How does the F-35, which is a 
relatively short-range fighter, fit into DOD's overall need for 
the longer range systems to operate in regions such as the 
Pacific?
    In whatever order you wish to take that.
    General Carlisle. Thank you, Congressman Reyes. I will 
start, if that is okay.
    Clearly, the Air Force believes that the move to a fifth-
generation capability is paramount as we move into the future. 
And that is to be able to operate aircraft and have freedom of 
action across the range of operations, military operations that 
would be required of us.
    We know that our adversaries, or potential adversaries out 
there, are continuing to develop and field anti-access/area 
denial capability, and that fifth-generation ability to 
penetrate those areas and still maintain freedom of maneuver 
and, if required, to hold targets at risk in an anti--or an 
area denial type environment. So, that is really the reason 
that we see it.
    And we see that those systems are proliferating throughout 
the world, and they are continuing--as very recently, the J-20 
roll-outs.
    You look at the short-range and medium-range ballistic 
missiles, surface-to-air capability and an integrated air and 
missile defense capability from our adversaries, we have to 
have that fifth generation to be able to maintain freedom of 
action in those environments.
    With respect to the legs, obviously, very much refueling 
aircraft and the ability to get it close and then refuel in and 
out. Also, certainly in the case of the Air Force.
    The announcement by the Secretary of Defense of the new 
long-range strike family of systems, which is a family of 
systems which includes communications, electronic attack, long-
range weapons, as well as a long-range penetrating bomber--all 
aid our ability to penetrate airspace and to go deep, if 
required, sir.
    Mr. Reyes. And the specific threats and how the F-35 is 
unique in that respect to counter them?
    General Carlisle. Sir, I think that unique--would probably 
be the adversary's advanced integrated air defense systems, SA-
20s and SAN-20s, HQ-9s, in particular, as well as the denial 
capabilities, with respect to anti-satellite capabilities to 
deny access, as well as trying to keep surface combatants away 
from using anti-ship missiles, would be the three that would be 
the most prominent, sir.
    Mr. Reyes. Anybody else?
    General Robling. Sir, I will just add, one of the things 
you asked in addition was, what makes the F-35 a must-have?
    I would say, over legacy aircraft right now, even at Block 
2B and eventually Block 3, but even starting at Block B, what 
you get out of the F-35 that you do not get out of legacy 
aircraft is this very powerful, integrated sensor suite that is 
really designed to--you know, centered around the digital 
aperture system.
    You get fused information displays. You get better joint 
operability for data transmission and communications. You get 
increased capability with your precision weapons, particularly 
JDAM [Joint Direct Attack Munition] and AMRAAM [advanced medium 
range air-to-air missile]-type missiles.
    And all of that combined gives you an aircraft, really, 
that is much more survivable, much more lethal and less 
dependent on support aircraft, tanker aircraft and electronic 
attack aircraft.
    Mr. Reyes. I will yield back.
    I do have some additional questions, Mr. Chairman, but I 
will submit those for the record.
    Thank you, gentlemen.
    Mr. Bartlett. Thank you.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    And thank you to our panelists for being here today and for 
your service to our Nation.
    I have got two questions I would like to ask. First, we 
have read a lot about the future of the Air Force's fighter 
fleet. But I want to focus on a very specific portion of it 
right now.
    Due to the current Air Force recapitalization crisis, the 
fiscal year 2012 budget request adds only about $15 million to 
the design and development of structural and capability 
modifications for the F-16 Block 40, 42, 50 and 52 fleet.
    However, I believe a majority of the F-16s in the Air Guard 
fleet are flying Block 30s, which also includes the 177th 
Fighter Wing, which I represent. These aircraft are not in your 
current plan for service life extension program.
    My question is: How do you plan to maintain the air 
sovereignty alert mission if these planes cannot fly, if you do 
not provide the same modifications to the aircraft at our 
National Guard wings? I think this is confusing and sends a 
very bad message.
    And the second question I have is that I have been 
surprised by the reports that the Air Force is considering a 
sole-source approach to buying helicopters to replace its fleet 
of Hueys for the Common Vertical Lift Support Platform program.
    I anticipate a competition would be a fair one; it would 
not favor any one particular company or solution. And it is 
puzzling to me why a decision has not been made to have this 
competitively bid.
    Given that the mission is U.S.-only, non-combat, non-
deployable, can we be assured that the Air Force is going to 
give consideration to affordable solutions in this time of 
budget crisis that are commercial, off-the-shelf, not in the 
current inventory?
    I think it would be a shame to waste what could be up to 
billions-of-dollars buying something that is overkill, just for 
the convenience that it is already in the Pentagon inventory.
    Whoever would choose to----
    General Carlisle. Thank you, Congressman. I will answer 
your first question, and my friend, Shack, will answer your 
second question, sir.
    Mr. LoBiondo. Okay.
    General Carlisle. The first one referenced the F-16s and 
the ASA [air sovereignty alert] alert. The Air Force fully 
funded the program for ASA alert, and clearly, that is our 
primary mission is homeland defense, and we are committed to 
that mission.
    With respect to the service life extension and how we are 
going to maintain that fleet, the Block 30, the pre-blocks as 
we call them, Block 25, 30 and 32s, using structural 
sustainment using O&M [Operations and Maintenance] funding, 
those airplanes, our intent would be to fly those to the 8,000-
hour limit of those airplanes, which brings those airplanes out 
into late in this decade and early in the 2020s.
    We are going to do a service life extension program to 
include structure and capability modifications for Block 40s 
and 50s, the newest, most capable F-16s. And as F-35s start 
coming off the line, we will move those Block 40s and 50s, 
backfill in Block 25, 30 and 32 units.
    So, the cascade of iron will be, as F-35s come in to both 
the Guard and the Active Duty, then we will take the newest F-
16s that do have the SLEP [service life extension program] 
modernization and both the end capability improvements, and 
move those into the units that have the older aircraft, the 
Block 25s, 30s and 32s, sir.
    Mr. LoBiondo. Just a brief comment, if I could, that it 
just seems that without the modifications, if the F-35 
continues to slip, these F-16 Block 30s are made more 
irrelevant and incapable of doing the mission. I would hope 
somebody would consider that.
    And for the second part of the question, General?
    General Shackelford. Yes, sir. If I might just elaborate on 
that for a second. The SLEP for the Block 40s or 52s leads to a 
production kit buyout in the--just beyond this current FYDP.
    That is prior to the time when the Block 30s--25, 30 and 
32--are expected to time-out with their service life, which is 
between 2018 and 2021.
    So, we still have time in the future, if we need to go back 
to those pre-blocks, to further modify them to pick that up. It 
is too early to be putting that into the budget right now.
    Mr. LoBiondo. Okay.
    General Shackelford. Now, regarding your question about 
Common Vertical Lift Support Platform, clearly, there are a 
number of vendors. We believe three or four different companies 
are able to produce the type of helicopter that we are looking 
for there. So, we have a wide range of options to choose from 
as we finalize the acquisition strategy.
    I expect that to be a competitive acquisition strategy, so 
that we can take advantage of competition, and so that we can 
get the best arrangement that we can for the Air Force and the 
taxpayer.
    Mr. LoBiondo. Okay.
    Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Mr. Shuster.
    Mr. Shuster. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    My question, General Shackelford, on the Common Vertical 
Lift Support Platform, the CVLSP, my understanding is that the 
Air Force is considering--well, I guess in March, you are going 
to come out with requirements on acquisition, the strategy. And 
my understanding is that you are going to put out there a sole 
source for the Huey helicopter replacement.
    Can you confirm or deny it, that that is going to happen, 
the sole-source contract?
    General Shackelford. If you mean by a sole-source contract 
selecting an existing helicopter in a sole-source situation, 
that is not correct as a strategy.
    Mr. Shuster. Okay.
    General Shackelford. Per my just previous comment, there 
are three or four different vendors that are able to produce a 
helicopter to our requirement for Common Vertical Lift Support 
Platform. We have a range of options.
    At one extreme end is going to a sole-source vendor for an 
existing capability, such as the H-60. That is not the 
direction we are leaning towards. I expect we will go towards a 
competitive strategy, which will give all of those vendors an 
opportunity to compete.
    Mr. Shuster. I am sorry. You said, for one of the platforms 
you will go to an existing----
    General Shackelford. No, sir.
    Mr. Shuster. Okay.
    General Shackelford. No, sir----
    Mr. Shuster. There's going to be competition?
    General Shackelford. It will be a competitive strategy, as 
I understand it.
    Mr. Shuster. And you view there are at least four vendors 
out there that can meet the requirements.
    General Shackelford. There are three to four that can meet 
the requirement for CVLSP.
    Mr. Shuster. Okay. That was my only question, so I yield 
back.
    Thank you very much.
    Mr. Bartlett. Thank you very much.
    Admiral Skinner, let me ask the question of you that I 
asked of the previous panel. Can you explain the contradiction 
to the Pentagon statement and explain why the LCS acquisition 
model does not apply to the F-35 engine? If competition and two 
LCS ships--those are pretty small classes, sir, compared to the 
number of engines that we would be buying for these planes.
    Can you explain why that is not a good model for F-35 
engine procurement?
    Admiral Skinner. Thank you, Mr. Chairman, for the question. 
Secretary Mabus has stated that the littoral combat ship 
procurement, we funded the research and development for both 
variants of the littoral combat ship. And we also obtained the 
data packages for both of those variants.
    We have funded the research and development for one variant 
of the F-35 engine, the F135. And the vast majority of the 
research and development for the other variant of the F-35 
engine, the F136, is in front of us.
    I have seen the business case analysis. And it seems to be 
compelling in that regard.
    But those are the major differences between the procurement 
of the littoral combat ship and the current procurement of the 
F-35 fighter engine.
    Mr. Bartlett. Yes, but there is still a meaningful amount 
of development money to be expended yet in LCS, is there not?
    Admiral Skinner. Well, we have both LCS-1 and LCS-2 are 
currently afloat. LCS-1 has already made one appointment to 
Southern Command.
    So, to my knowledge, we have committed to fully funding the 
research and development for both of those variants. And that 
was all part of our acquisition strategy, and the purchase of 
the design packages for both of those variants.
    Mr. Bartlett. Why do we still have more money in this 
year's budget for a development of the LCS than there was in 
last year's budget? Is this for the ship itself? Or is it for 
the mission packages?
    Admiral Skinner. We have money in the budget for 
procurement of the vessels themselves, and we are still 
developing the mission packages.
    But Mr. Chairman, I can get you more information on that 
question, and take that question for the record and get back to 
you.
    [The information referred to can be found in the Appendix 
on page 149.]
    Mr. Bartlett. Your budget request RDT&E [Research, 
Development, Test & Evaluation] continues through 2011, 2012, 
2013 and 2014 in decreasing amounts, from $226 million, $183 
million, $110 million, $82 million, and up a little to $87 
million in fiscal year 2015.
    I was very supportive of buying both of the LCS ships.
    The competition did what they were supposed to do. Each of 
them believed that they had to be the low bidder, or they were 
not going to be in the game anymore. So, they really sharpened 
their pencils, and we got bids that were like $100 million less 
than we expected, unexpectedly low numbers.
    I did not think we had enough sea trials with these ships 
to know which of those would be better for the multiple 
missions that we are buying these ships for. And so, I was very 
supportive of this dual buy.
    And I am still wondering why this is not a good model for 
procurement of the F-35 engine.
    Admiral Skinner, the Department has increased its emphasis 
on acquiring longer-range strike capabilities to address ever-
increasing anti-access/area denial threat environments. These 
are obviously threat environments for the ships.
    This was evident by the Navy's desire to field an Unmanned 
Carrier-Launched Airborne Surveillance and Strike system by 
2018, and the Air Force's plans to acquire a new long-range 
penetrating bomber by mid-2020s.
    I have a couple of questions and concerns relative to this. 
First of all, this recent emphasis on the need for longer-range 
strike systems changed the Department's thinking about its 
requirements--that is, the quantity, the mix, the fielding 
timeframes--for shorter-range fighter attack aircraft, such as 
the Joint Strike Fighter.
    Admiral Skinner. Mr. Chairman, the systems that you refer 
to as the unmanned are the UCLASS [Unmanned Carrier-Launched 
Airborne Surveillance and Strike] system, a surveillance and 
strike system that we are going to put on our aircraft carriers 
in the 2018 timeframe.
    We have a two-part process in order to do that. We have a 
current demonstration, the Navy Unmanned Combat Aerial System 
demonstration, that we are performing to-date.
    That system will operate off an aircraft carrier in the 
2013 timeframe. What is unique about that is we will stop our 
carrier operations to get that unmanned air vehicle on and off 
our ships, and we will learn how to operate it from an arrested 
landing and a catapult launch and airspace means.
    All the knowledge that we gain from operating that unmanned 
combat air system will be put into the UCLASS system, the 
surveillance and strike system that you mentioned. And that 
system will fly in an integrated fashion with our carrier air 
wings in the 2018 timeframe.
    With regards to the requirements part of your question, I 
defer that part of the answer to Admiral Floyd.
    Admiral Floyd. Thank you, Mr. Chairman.
    Regarding the requirements and whether there is anything 
specific ongoing right now in the manned aircraft realm, 
outside of our normal requirements review process every year, 
the answer to that would be no.
    We are focused on the carrier air wing and the mix of Joint 
Strike Fighter and F/A-18 out into the future for our strike 
requirements.
    Mr. Bartlett. I understand that we are relooking at the mix 
of short-range and long-range attack platforms, because of some 
anti-access platforms that potential enemies have, such as the 
Chinese anti-ship missile, which means that we need to stand 
off a considerable distance that that weapon is available to 
them.
    I have a question relative to the future. You are 
projecting the use of unmanned. That means you have not put a 
man at risk, if you are going into a hostile environment. And I 
think we need to move more in that direction.
    But there are three capabilities that one needs to 
consider. One is our ability to be stealthy--and we are pretty 
good. But radars are getting better, and the air--or the 
ground-to-air defenses are getting better.
    With whom do you counsel to determine which of these 
technologies will run faster? Will we be able to remain 
invisible to them with our stealth? Or will their radars run 
faster than stealth improvements, so that they can see us?
    And what about these ground-to-air capabilities?
    With whom do you counsel to determine which of these 
capabilities will run the faster? And, therefore, what kind of 
assets should we be developing for the future?
    General Carlisle. Well, Mr. Chairman, I will start with an 
answer on that.
    I think that we look to all the agencies--obviously, DARPA 
[the Defense Advanced Research Projects Agency], NASIC [the 
National Air and Space Intelligence Center] with respect to 
adversary capabilities and how well they are--how fast they are 
developing their new systems--AFRL [the Air Force Research 
Laboratory], the research laboratory.
    We look at the T.R. [Technology Readiness] level of 
different technologies, technology readiness levels of 
different technologies. And we look at where we are at, and 
what it has taken to get us to the position we are at with 
respect to our capabilities and our potential adversaries and 
where they are at, and what we assess to be their timeframe to 
get there.
    But I think, at the core of this, Mr. Chairman, is our 
ability to integrate and operate jointly in a cross-domain 
capability. Whether it is space, cyber or subsurface, surface 
combatant, air combatants, it is our ability to operate in an 
integrated--beyond joint--an integrated fashion and use 
capabilities to exploit the adversary's weakness wherever that 
is, to deny him use of those systems that he has developed and 
put forth, so that we can achieve freedom of maneuver and gain 
access to hold targets at risk when we want to and when we need 
to.
    Mr. Bartlett. I asked that question of the new director of 
DARPA--you mentioned DARPA--Regina Dugan. I asked if they had 
the capability to advise us on the projected improvement in 
technology, so that we would know whether we were developing an 
airplane that was just going to be cannon fodder for the 
future, or would we be able to penetrate their defenses.
    She said, yes, they did that kind of thing. And as an 
example, she had with her an analysis they did of cyber, and 
the malware and the defense-ware that we are developing.
    It was a startling picture. The lines of code for malware 
have not increased significantly over the years. But there has 
been an exponential increase in the lines of code that we find 
necessary to protect our computer systems.
    If we cannot bend that curve, by-and-by, our computers will 
be consumed with protecting themselves, and they will not be 
able to do anything for us. And it is that kind of an analysis 
that I hope we are able to make for these technologies.
    Clearly, radar will get better. Clearly, we will be able to 
do better with stealth. And clearly, there will be improvements 
in ground-to-air defensive capabilities.
    And again, I want to make sure that we are getting the best 
counsel we have. And these are very long-range programs, you 
know. It is going to be a decade or more before anything is in 
the field when you start a program.
    And when we get it in the field, is it already going to be 
obsolete, because the defenses against it have run faster than 
those developments? And you indicated that you counsel with 
DARPA for this kind of thing?
    General Carlisle. Yes, sir, we do. We take advantage of 
what they are looking at. And again, NASIC and the entire I.C., 
intelligence community, as well as the research labs--
Livermore, Lawrence Livermore, AFRL--all the labs.
    Mr. Bartlett. Thank you very much. We have a number of 
questions that we need answers to for the record.
    Let me turn to my colleague and ask him if he has 
additional questions?
    Mr. Reyes. Just for the record.
    Mr. Bartlett. Just for the record. He has questions for the 
record.
    I have a number of questions. But rather than take your 
time here, we will just submit those questions for the record.
    I want to thank you very much for your testimony.
    I want to note that I have been to the floor 50 times, I 
think, exactly, to speak for an hour on energy. And if you 
watch C-SPAN, you will notice that they pan the floor. There is 
nobody out there.
    But I need to know when I am at that microphone that there 
are somewhere between a million-and-a-half and two-and-a-half 
million people out there that are watching that. So, you are 
talking kind of to an invisible audience.
    We are doing quite the same thing today. There are a lot of 
people out there watching. And this becomes a part of the 
permanent record, and a lot of people will be poring over it in 
the future.
    So, thank you very much for your testimony. Thank you for 
the service to your country.
    And we will adjourn this hearing.
    [Whereupon, at 2:04 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 15, 2011
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2011

=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 15, 2011

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Van Buren. [The information was not available at the time of 
printing.] [See page 28.]
    Mr. Van Buren. [The information was not available at the time of 
printing.] [See page 29.]
    Mr. Van Buren. [The information was not available at the time of 
printing.] [See page 37.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. REYES
    Admiral Venlet. [The information was not available at the time of 
printing.] [See page 10.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MR. GARAMENDI
    Mr. Van Buren, Admiral Venlet, and Mr. Sullivan. [The information 
was not available at the time of printing.] [See page 23.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 15, 2011

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. Air Force witnesses before the subcommittee indicated 
the Air Force intends to conduct a fair and open competition for CVLSP. 
Can I assume that the Air Force will establish CVLSP requirements that 
do not exceed the requirements, to avoid having to pay for more 
capability than required for the CVLSP mission?
    Mr. Van Buren. [The information was not available at the time of 
printing.]
    Mr. Bartlett. I understand the Air Force has two helicopter 
modernization requirements, CSAR and CVLSP. The CSAR mission is a 
demanding combat operation for which the Air Force originally intended 
to buy the HH-47 heavy-lift Chinook helicopter. The CVLSP mission is a 
non-deployable, non-combat mission performed today by UH-1 aircraft. Is 
it correct to assume that these are two very different missions that 
require a high-low mix of aircraft to ensure that the warfighter gets 
what is truly required, as affordably as possible?
    Mr. Van Buren. [The information was not available at the time of 
printing.]
    Mr. Bartlett. Can the Air Force assure the subcommittee that it 
will run separate fair and open competitions for its Huey and its 
Pavehawk replacement programs, given that they are such different 
requirements?
    Mr. Van Buren. [The information was not available at the time of 
printing.]
    Mr. Bartlett. On several occasions during your testimony on the 
F135 engine you characterized the F135 engine as a ``mature'' engine. 
Previously, the Department of Defense has informed the committee that 
200,000 flight hours are required to achieve engine maturity. The F135 
has accumulated approximately 1,000 flight hours. How can you 
characterize the F135 as a ``mature'' engine?
    Mr. Van Buren. [The information was not available at the time of 
printing.]
    Mr. Bartlett. In your March 15, testimony before the subcommittee 
you indicated that the ``JPO has concluded a fixed price type contract 
for the F135 engine.''
    When was the contract signed?
    What type of contract was signed?
    What was the total value of the contract?
    What percentage of the contract value was subject to cost plus 
reimbursement?
    What is the target value of the contract?
    What is the ceiling price of the contract?
    What is the cost share?
    Mr. Van Buren. [The information was not available at the time of 
printing.]

    Mr. Bartlett. 1a. Mr. Sullivan, as you know, the JSF program has 
had a host of problems over the past years resulting in significant 
cost growth, schedule slips, and, most importantly, delays in fielding 
capabilities to the warfighter.
    From your observations, what have been the primary causes to the 
JSF's development problems and challenges to date?
    Mr. Sullivan. JSF development problems and challenges can largely 
be traced to its extremely risky acquisition strategy, poor decisions 
at key junctures, and a management environment that was slow to 
acknowledge and address problems. At development start, JSF officials 
adopted a ``single step'' acquisition strategy to develop and acquire 
full combat capabilities on a very aggressive, risky schedule with 
substantial concurrency among development, testing, and production 
activities. Little systems engineering analysis was done to understand 
what resources would be needed to achieve the required capabilities. In 
implementation, the program started development before requisite 
technologies were ready, started manufacturing test aircraft before 
designs were stable, and moved to production before flight testing 
adequately demonstrated that the aircraft design meets performance and 
operational suitability requirements. None of the 8 critical 
technologies were mature at system start and now, almost 10 years 
later, only five are mature and three are approaching maturity.\1\ 
Also, all three variants fell significantly short of meeting best 
practice standards regarding release of drawings at the critical design 
reviews. The late release of drawings--and continuing high rate of 
changes--resulted in a cascading of problems in establishing suppliers 
and manufacturing processes, which led to late parts deliveries, 
delayed the program schedule, and forced inefficient manufacturing 
processes to workaround problems. These issues are lessening now but 
the impacts are still felt in higher costs, late deliveries of test and 
production aircraft, and a much-delayed development test schedule.
---------------------------------------------------------------------------
    \1\ Applying best commercial practices, we define maturity as 
achieving technology readiness level 7-system prototype demonstration 
in a realistic operational environment.
---------------------------------------------------------------------------
    As part of its June 2010 Nunn-McCurdy certification to the 
Congress, DOD provided a root cause analysis for cost and schedule 
growth that identifies similar factors. Specifically, the analysis 
cites a very aggressive and concurrent development schedule, 
unrealistic cost and schedule estimates, flawed and overoptimistic 
assumptions, and management's reluctance to accept unfavorable 
information, slowing down the ability of the contractor and government 
to recognize and respond to problems.
    Mr. Bartlett. 1b. Has the program been receptive to your past 
advice and recommendations for establishing a knowledge-based 
acquisition process?
    Mr. Sullivan. Until recently, the Department has not been very 
receptive to our findings and recommendations. Since 2001, defense 
officials have often non-concurred with our recommendations and, even 
when somewhat agreeable, did not usually fully implement them. For 
example, while officials generally acknowledged the merits of 
knowledge-based acquisitions and agreed that the JSF strategy was very 
risky, they chose to continue moving forward with the intent to manage 
the risks. They did not delay development start even though 
technologies were not ready and did not delay or reduce procurement 
when designs were not stable nor manufacturing processes mature. 
Appendix II of our recently issued report \2\ summarizes our reports 
since 2001 and DOD's general recalcitrance in adopting our 
recommendations. (Included in this document as appendix 1.)
---------------------------------------------------------------------------
    \2\ GAO, Joint Strike Fighter: Restructuring Places Program on 
Firmer Footing, but Progress Still Lags. GAO-11-325 (Washington, D.C.: 
April 7, 2011).
---------------------------------------------------------------------------
    In the past year and a half, defense management appears to be 
somewhat more responsive to our findings and recommendations. Defense 
officials lately recognized numerous technical, financial, and 
management shortcomings and continue to significantly restructure the 
program, making changes we support and, in quite a few cases, had 
earlier recommended. Our work with DOD officials and the JSF program is 
now somewhat more collaborative than in the past and is open to, at 
minimum, an ``agree to disagree'' relationship.
    Mr. Bartlett. 1c. What future steps can the Department take to 
ensure the JSF program does not repeat its mistakes from the past to 
achieve a more predictable and successful outcome?
    Mr. Sullivan. A new and sustained focus on affordability, effective 
implementation of restructuring actions, successful mitigation of cost 
and manufacturing risks identified by independent panels, and more 
active and involved oversight by OSD and military service headquarters 
should lead to more predictable and achievable outcomes. Regaining and 
aggressively pursuing affordability--both in terms of the investment 
costs to acquire the JSF and the continuing costs to operate and 
maintain it over the life-cycle--will be very challenging, but is 
paramount to future success. Restructuring actions include the adoption 
of more realistic cost and schedule estimates, a more robust flight 
test program, and directed implementation of critical improvements 
needed in the aircraft and engine manufacturing and supplier management 
processes. Still needed (and in the works) is a new, knowledge-based 
procurement cost estimate through completion of the program. Marine 
Corps leadership is directly involved in efforts to resolve technical 
deficiencies in the short take off and landing variant.
    Mr. Bartlett. 1d. What steps can be taken to place bounds on the 
program and to help improve management and oversight of the program?
    Mr. Sullivan. Our April 7 report \3\ recommends the Secretary of 
Defense take the following actions to reinforce and strengthen program 
cost controls and oversight:
---------------------------------------------------------------------------
    \3\ GAO-11-325.
---------------------------------------------------------------------------
    (1) The JSF program should maintain total annual funding levels for 
development and procurement at the current budgeted amounts in the 
fiscal year 2012-2016 future years defense plan (modified, if 
warranted, by the new acquisition program baseline expected this year). 
It should facilitate trades among cost, schedule, requirements, and 
quantities to control cost growth. Having gone through the Technical 
Baseline Review and budget approval process, it is reasonable to expect 
the program to execute against the future years defense plan going 
forward. Only in instances of major and unforeseen circumstances, 
should the Department consider spending more money on the program. Even 
then, we would expect changes to be few and adopted only after close 
scrutiny by defense leadership. Approved changes should be well 
supported, adequately documented, and reported to the congressional 
defense committees.
    (2) Establish criteria for the STOVL probation period and take 
additional steps to sustain individual attention on STOVL-specific 
issues, including independent F-35B/STOVL Progress Reviews with Senior 
Leadership to ensure cost and schedule milestones are achieved to 
deliver required warfighter capabilities. The intent is to allow each 
JSF variant to proceed and demonstrate success at its own pace and 
could result in separate full-rate production decisions.
    (3) Conduct an independent review of the contractor's software 
development, integration, and test processes--similar to its review of 
manufacturing operations--and look for opportunities to streamline 
software efforts. This review should include an evaluation of the 
ground lab and simulation model accreditation process to ensure it is 
properly structured and robustly resourced to support software test and 
verification requirements.
    Mr. Bartlett. 2a. DOD has been engaged in a comprehensive 
restructuring of the program since last year. In testimony last year 
before this Subcommittee, you said that GAO supports these actions.
    Do you still support the restructuring efforts, including the most 
recent ones added by the Secretary in January 2011? Have you seen 
concrete examples of improvements from these actions?
    Mr. Sullivan. We do still support JSF restructuring actions and 
note some tangible improvements already:
    <bullet>  The technical baseline review was very comprehensive and 
applied solid systems engineering methods to thoroughly scrub the 
program and highlight key problem areas.
    <bullet>  While cost analysts are still working toward a new 
program baseline that recalculates procurement costs to completion, the 
current cost and schedule estimates provided to the Congress in the 
Nunn-McCurdy certification package and the FY 2012 budget are more 
realistic and achievable.
    <bullet>  The new development flight test schedule is also more 
realistic and better resourced, using more conservative assumptions 
about fly rates and test point achievements and providing for more 
flights and more test assets.
    <bullet>  The ``probation period'' and high level of oversight 
ordered for the STOVL is appropriately focused on evaluating and 
resolving its problems to better inform future decisions on this 
variant, so critically important to the Marine Corps' future aviation 
plans.
    <bullet>  The substantial reduction in near-term procurement 
lessens, but does not eliminate, risks from concurrency.
    <bullet>  Finally, the aircraft and engine manufacturers are making 
good faith efforts to implement the findings and recommendations of the 
Independent Manufacturing Review Team and Joint Assessment Team and 
some production and supply performance measures are improving.
    Mr. Bartlett. 2b. Several actions seem the same or similar to GAO's 
recommendations from years ago. What are some of these and why did the 
Department not previously implement your recommendations?
    Mr. Sullivan. Several actions are quite similar.
    <bullet>  Our March 2008 report criticized DOD's so-called Mid-
course Risk Reduction Plan, particularly the cuts made in flight test 
assets and the number of flight tests. We recommended that DOD revisit 
and, if necessary, revise the plan to address concerns about testing, 
use of management reserves, and manufacturing deficiencies. Instead, 
DOD wanted to replenish management reserves from within the program 
baseline and did not revise its plan, nor fix the problems. In short 
order, management reserves were again depleted. Recent restructuring 
actions added more test resources, increased the number of flight 
tests, and extended the schedule, effectively reversing the mid-course 
plan. In addition, the IMRT team recommended improvements in 
manufacturing and supply chain management.
    <bullet>  Also in 2008, we determined that the program cost 
estimate was not reliable and that a new comprehensive independent cost 
estimate and schedule risk assessment are needed. We reiterated these 
concerns in subsequent reports, including the need to make a better 
projection of life-cycle operating and support costs. DOD's joint 
estimating team did provide better cost estimates in the interim, but 
it was not until the recent restructuring (and after a Nunn-McCurdy 
cost breach) that comprehensive independent cost estimates for the 
program to completion were directed. DOD is also preparing a more 
informed forecast of life cycle costs. Restructuring also directed the 
program to finally do the schedule risk assessment, more than two after 
our recommendation.
    <bullet>  Since 2006, we have consistently warned against procuring 
quantities of aircraft much ahead of testing and the ability of the 
manufacturing process to produce at high rates. In 2009, for example, 
we reported on the risks posed by DOD plans to further accelerate 
procurement and to do so on cost reimbursement contracts. DOD responded 
to us that planned procurement rates were efficient and feasible. We 
were gratified when Defense leadership substantially reduced near term 
procurement and decreased the annual ramp rate (the percentage increase 
in production from one year to the next) and awarded the first fixed 
price production contract.
    We are not sure why the Department did not implement these 
recommendations earlier. We can only surmise that it did not because it 
did not have to. Funding for the JSF was plentiful and it was a top 
priority, meaning the Department could borrow from lower priorities to 
pay for its cost growth. While acknowledging the risks, program and 
contractor officials typically kept driving forward rather than admit 
and resolve problems.
    Mr. Bartlett. 2c. Going forward, what critical challenges remain 
for the program from a cost and schedule standpoint?
    Mr. Sullivan. Although encouraged by DOD's ongoing restructuring 
actions, we remain concerned about the JSF program's ability to 
successfully execute to testing and manufacturing schedules. The JSF 
program is still very early in demonstrating aircraft design and 
testing to verify it works as intended. Development testing continues 
to be hampered by late delivery of test aircraft, slips in delivering 
software to testing, and delays in accrediting and verifying ground 
test labs and simulation models. These issues must be addressed in 
order to implement the more rigorous test schedule going forward. 
Furthermore, development and operational testing will inevitably 
identify design and employment changes as a result of discovery and 
rework. Future changes may require alterations to the manufacturing 
process, changes to the supply base, and costly retrofitting of 
aircraft already produced and fielded.
    The program has still not adequately demonstrated stable designs 
and mature manufacturing processes as it enters the fifth year of 
production. We remain concerned about constraints in factory throughput 
and the increasing backlog of production jets on order but not 
delivered. Even after the Secretary reduced near-term procurement 
quantities, the program still plans to steeply ramp up annual 
production rates and make substantial investments, planning to purchase 
more than 300 aircraft for about $50 billion before development flight 
testing is completed in 2016. We will monitor contractors' 
responsiveness in implementing the IMRT and JAT recommendations, 
especially efforts to improve global supply chain management.
    Additional program cost increases and schedule delays are likely as 
restructuring continues. The Secretary of Defense has not yet granted 
new milestone B approval nor approved a new acquisition program 
baseline. Originally planned for November 2010, program officials now 
expect the new acquisition program baseline in summer 2011. Cost 
analysts are still revising procurement funding requirements for the 
period fiscal year 2017 through completion of procurement in 2035. 
Accordingly, the net effect of reducing near-term procurement 
quantities and deferring these aircraft to future years is uncertain 
and depends upon the assumptions made about future unit prices, annual 
quantities, and inflation. We expect total procurement costs will be 
somewhat higher than the estimate submitted in the Nunn-McCurdy 
certification. A major unknown factor that could have major 
consequences is the potential costs and schedule changes resulting from 
the evaluation of STOVL deficiencies.
    Maintaining affordability--both in terms of the investment costs to 
acquire the JSF and the continuing costs to operate and maintain it 
over the life-cycle--will be very challenging. A key tenet of the JSF 
program from its inception has been to deliver an affordable, highly 
common fifth-generation aircraft that could be acquired by the 
warfighters in large numbers. Rising aircraft prices erode buying power 
and may make it difficult for the U.S. and its allies to buy as many 
aircraft as planned. The international partners are being counted on to 
buy about 730 aircraft; DOD's unit cost estimates assume this level of 
participation. Quantity reductions could drive additional price 
increases for future aircraft. Further, while the Department is still 
refining cost projections for operating and supporting future JSF 
fleets, cost forecasts have increased as the program matures and more 
data becomes available. Current JSF life-cycle cost estimates are 
considerably higher than the legacy aircraft it will replace; this has 
major implications for future demands on military operating support 
budgets and plans for recapitalizing fighter forces.
    Mr. Bartlett. 2d. In your current draft report at DOD for comment, 
what are some specific actions you would like them to take?
    Mr. Sullivan. We issued the report on April 7. DOD concurred with 
all three recommendations. These are discussed above in the answer to 
the fourth question under part 1.
    Mr. Bartlett. 3a. Mr. Sullivan, you issued a recent report on the 
Air Force's tactical fighter shortfalls and inventory plans. One key 
point was the JSF's sheer size and priority within the Department and 
how that impacts other programs in the acquisition portfolio.
    How has the JSF size and priority affected other programs in the 
portfolio? Considering the JSF's central role in DOD's future tactical 
aircraft recapitalization plans, what are the potential consequences to 
the program and other programs if the JSF cannot deliver on time with 
the numbers needed to replace legacy fighters and at a price the 
Department can afford?
    Mr. Sullivan. Our July 2010 report on DOD's tactical aircraft 
requirements \4\ stated that the JSF is the linchpin in DOD's tactical 
aircraft recapitalization plans because of its magnitude and the 
hundreds of legacy aircraft it is slated to replace. As a result, JSF 
program setbacks in costs, deliveries, and performance directly affect 
modernization plans and retirement schedules of the legacy aircraft. 
Uncertainty about JSF's costs and deliveries makes it challenging for 
the Services to plan and implement modernization efforts and retire 
older aircraft that are becoming more expensive to operate. As a 
result, Service officials have been forced to react to changing JSF 
schedules and to put forward unfunded contingency plans to modernize 
and extend the life of some legacy aircraft. In addition to JSF's 
problems, DOD's investments in legacy systems have generally been 
assigned lower priority in the budgeting process, and many critical 
upgrade and modernization efforts face funding shortfalls.
---------------------------------------------------------------------------
    \4\ GAO, Tactical Aircraft: DOD's Ability to Meet Future 
Requirements Is Uncertain, with Key Analyses Needed to Inform Upcoming 
Investment Decisions. GAO-10-789 (Washington, D.C.: July 29, 2010).
---------------------------------------------------------------------------
    Going forward, the JSF is a top priority for the Department and 
will require large annual funding commitments from the Air Force, Navy, 
and Marine Corps. As such, continued program cost increases have 
significant affordability implications for the Services, other programs 
in the acquisition portfolio, and the Nation as a whole. In this period 
of more austere budget conditions, continued cost increases may result 
in reduced quantity purchases by the Department or international 
partners. If this were to occur, we would expect unit prices to 
increase, further straining program affordability. At minimum, other 
lower priority programs will have to compete with the JSF for a 
shrinking discretionary pool of money. Looking forward, long-term JSF 
operating and sustainment costs will significantly affect future 
budgets; while the costs to develop and produce a weapon system are 
significant, these usually represent less than a third of total 
ownership costs. Current forecasts of JSF operating and sustainment 
costs project them to exceed those of legacy aircraft.
    Mr. Bartlett. 3b. What are the Air Force and Navy doing with legacy 
fighter programs to help mitigate cost increases and schedule delays 
for the JSF?
    Mr. Sullivan. The Air Force plans to extend the service life and 
enhance capabilities on 300 newer legacy F-16s. Initial funding for 
this is in the Air Force's 2012 budget request, but the full cost is 
not yet known. Along with some structural work on older legacy F-16s, 
and assuming JSF at peak procurement of 80 aircraft per year, officials 
believe this will mitigate a projected shortfall in the tactical 
fighter force through 2030. Our February 2011 report on Air Force 
fighter force structure reports \5\ noted the-Air Force is not 
expecting any major changes to its fighter recapitalization plan. 
However, better information on the JSF restructured program and on the 
F-16 fleet is expected to become available in 2011. This could enable a 
more informed analysis, comparing and contrasting various alternatives 
for mitigating the projected aircraft shortfalls.
---------------------------------------------------------------------------
    \5\ GAO, Tactical Aircraft: Air Force Fighter Reports Generally 
Addressed Congressional Mandates, but Reflected Dated Plans and 
Guidance, and Limited Analyses. GAO-11-323R (Washington, D.C.: Feb. 24, 
2011).
---------------------------------------------------------------------------
    Similarly, the Navy is evaluating a service life extension program 
for approximately 280 F/A-18 aircraft in order to address its projected 
tactical aircraft shortfall in the near term. The new budget also 
directs the Navy to purchase an additional 41 F/A-18E/F Super Hornets 
in the near-term to help cover the gap caused by JSF delays.
    Appendix 1: GAO Reports and DOD Responses

----------------------------------------------------------------------------------------------------------------
                   Est.  dev. costs                                                          DOD response and
  GAO  report    dev. length  APUC(a)     Key program event       Primary GAO message            actions
----------------------------------------------------------------------------------------------------------------
2001 GAO-02-39   $34.4  Billion  10    Start of system          Critical technologies    DOD did not delay start
                  years  $69  Million   development and          needed for key           of system development
                                        demonstration            aircraft performance     and demonstration
                                        approved.                elements are not         stating technologies
                                                                 mature. Program should   were at acceptable
                                                                 delay start of system    maturity levels and
                                                                 development until        will manage risks in
                                                                 critical technologies    development.
                                                                 are mature to
                                                                 acceptable levels.
----------------------------------------------------------------------------------------------------------------
2005 GAO-05-271  $44.8  Billion  12    The program undergoes    We recommend that the    DOD partially concurred
                  years  $82  Million   re-plan to address       program reduce risks     but does not adjust
                                        higher than expected     and establish            strategy, believing
                                        design weight, which     executable business      that their approach is
                                        added $7 billion and     case that is knowledge-  balanced between cost,
                                        18 months to             based with an            schedule and technical
                                        development schedule.    evolutionary             risk.
                                                                 acquisition strategy.
----------------------------------------------------------------------------------------------------------------
2006 GAO-06-356  $45.7  Billion  12    Program sets in motion   The program plans to     DOD partially concurred
                  years  $86  Million   plan to enter            enter production with    but did not delay
                                        production in 2007       less than 1 percent of   start of production
                                        shortly after first      testing complete. We     because they believe
                                        flight of the non-       recommend program        the risk level was
                                        production               delay investing in       appropriate.
                                        representative           production until
                                        aircraft.                flight testing shows
                                                                 that JSF performs as
                                                                 expected.
----------------------------------------------------------------------------------------------------------------
2007 GAO-07-360  $44.5  Billion  12    Congress reduced         Progress is being made   DOD non-concurred and
                  years  $104           funding for first two    but concerns remain      felt that the program
                  Million               low-rate production      about undue overlap in   had an acceptable
                                        buys thereby slowing     testing and              level of concurrency
                                        the ramp up of           production. We           and an appropriate
                                        production.              recommend limits to      acquisition strategy.
                                                                 annual production
                                                                 quantities to 24 a
                                                                 year until flying
                                                                 quantities are
                                                                 demonstrated.
----------------------------------------------------------------------------------------------------------------
2008 GAO-08-388  $44.2  Billion  12    DOD implemented a Mid-   We believe new plan      DOD did not revise risk
                  years  $104           Course Risk Reduction    actually increases       plan nor restore
                  Million               Plan to replenish        risks and that DOD       testing resources,
                                        management reserves      should revise the plan   stating that they will
                                        from about $400          to address concerns      monitor the new plan
                                        million to about $1      about testing, use of    and adjust it if
                                        billion by reducing      management reserves,     necessary. Consistent
                                        test resources.          and manufacturing. We    with a report
                                                                 determine that the       recommendation, a new
                                                                 cost estimate is not     cost estimate was
                                                                 reliable and that a      eventually prepared,
                                                                 new cost estimate and    but DOD refused to do
                                                                 schedule risk            a risk and uncertainty
                                                                 assessment is needed.    analysis that we felt
                                                                                          was important to
                                                                                          provide a range
                                                                                          estimate of potential
                                                                                          outcomes.
----------------------------------------------------------------------------------------------------------------
2009 GAO-09-303  $44.4  Billion  13    The program increased    Because of development   DOD agreed to report
                  years  $104           the cost estimate and    problems, we stated      its contracting
                  Million               adds a year to           that moving forward      strategy and plans to
                                        development but          with an accelerated      Congress. In response
                                        accelerated the          procurement plan and     to our report
                                        production ramp up.      use of cost              recommendation, DOD
                                        Independent DOD cost     reimbursement            subsequently agreed to
                                        estimate (JET I)         contracts is very        do a schedule risk
                                        projects even higher     risky. We recommended    analysis, but still
                                        costs and further        the program report on    had not done so as of
                                        delays.                  the risks and            February 2011. In
                                                                 mitigation strategy      February 2010, the
                                                                 for this approach.       Department announced a
                                                                                          major restructuring of
                                                                                          the JSF program,
                                                                                          including reduced
                                                                                          procurement and a
                                                                                          planned move to fixed-
                                                                                          price contracts.
----------------------------------------------------------------------------------------------------------------
2010 GAO-10-382  $49.3  Billion  15    The program was          Because of additional    DOD continued
                  years  $112           restructured to          costs and schedule       restructuring actions
                  Million               reflect findings of      delays, the program's    and announced plans to
                                        recent independent       ability to meet          increase test
                                        cost team (JET II) and   warfighter               resources and lower
                                        independent              requirements on time     the production rate.
                                        manufacturing review     is at risk. We           Independent review
                                        team. As a result,       recommend the program    teams evaluated
                                        development funds        complete a full          aircraft and engine
                                        increased, test          comprehensive cost       manufacturing
                                        aircraft were added,     estimate and assess      processes. As we
                                        the schedule was         warfighter and IOC       projected in this
                                        extended, and the        requirements. We         report, cost increases
                                        early production rate    suggest that Congress    later resulted in a
                                        decreased.               require DOD to prepare   Nunn-McCurdy breach.
                                                                 a ``system maturity      Military Services are
                                                                 matrix''-a tool for      currently reviewing
                                                                 tying annual             capability
                                                                 procurement requests     requirements as we
                                                                 to demonstrated          recommended. The
                                                                 progress.                Department and
                                                                                          Congress are working
                                                                                          on a ``system maturity
                                                                                          matrix'' tool, which
                                                                                          we suggested to
                                                                                          Congress for
                                                                                          consideration, to
                                                                                          improve oversight and
                                                                                          inform budget
                                                                                          deliberations.
----------------------------------------------------------------------------------------------------------------

    Source: DOD data and GAO analysis.
    (a) Average procurement unit cost.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. Gen Carlisle, what is the process you plan to use to 
ensure procurement of an affordable, right-sized helicopter for the 
mission? What assurances will there be that the American taxpayer is 
not paying too much for an aircraft that is overkill for this domestic, 
non-combat requirement?
    General Carlisle. [The information was not available at the time of 
printing.]
    Mrs. Roby. I am sure you are familiar with all of the fighter wings 
in the Air National Guard, and there is one I would like to highlight, 
in light of F-35 fielding. This is the 187th Fighter Wing which flies 
F-16s. Early on, Air Combat Command leadership led our Commanding 
General of the Alabama National Guard to believe that this unit would 
be on the first list of units to be fielded the F-35. Well, the list 
came out and the 187th FW was not on the list. My question is not if 
the 187th FW will be fielded the F-35, but when?
    General Carlisle. [The information was not available at the time of 
printing.]
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. OWENS
    Mr. Owens. Given our experience in Iraq and Afghanistan, and even 
previous air campaigns like Operations Desert Storm and Operation 
Allied Force how much of an operational and logistical advantage will 
it be in future conflicts, if three of our Services and our allies are 
all flying the F-35?
    General Carlisle. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. On-going deployment of laser peening for life 
extension of the F-22 structure is going very well and represents an 
excellent example of addressing issues before they become serious and 
costly problems. It is also another example of US development of world 
leading aerospace technology that spins out creating US jobs in the 
commercial sector. We applaud this F-22 effort and the forward looking 
steps the Air Force and its OEMs took in this deployment. Do you see 
this and other new technologies being deployed to solve problems for 
new systems such as the F-35? What is the mechanism to ensure these 
advances move forward?
    Mr. Van Buren and Admiral Venlet. [The information was not 
available at the time of printing.]
    Mr. Garamendi. Laboratory test results funded by the Office of 
Naval Research and overseen by NAVAIR have indicated that up to 250% 
lifetime improvements can be obtained on arrestment hook shanks for 
carrier based aircraft with a simple advanced process adding processing 
cost of only about 1%. We applaud this work and highly recommend that 
it be followed through to deployment. We understand that if implemented 
cost savings will be in the many millions of dollars for the fleet as 
well as adding enhanced safety. Are efforts underway to field and 
identify other applications? Are programs such as the Navy's BOSS III 
the appropriate vehicle to enable implementation and thus begin to 
realize cost savings?
    Admiral Skinner. [The information was not available at the time of 
printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
